<html>
<title> - BROWNFIELDS: LESSONS FROM THE FIELD</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




                  BROWNFIELDS: LESSONS FROM THE FIELD

=======================================================================

                                (107-6)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 15, 2001

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                                   ____

                    U.S. GOVERNMENT PRINTING OFFICE
71-356 DTP                  WASHINGTON : 2001
_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001





             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL II, West Virginia
SHERWOOD L. BOEHLERT, New York       ROBERT A. BORSKI, Pennsylvania
HOWARD COBLE, North Carolina         WILLIAM O. LIPINSKI, Illinois
WAYNE T. GILCHREST, Maryland         PETER A. DeFAZIO, Oregon
STEPHEN HORN, California             BOB CLEMENT, Tennessee
JOHN L. MICA, Florida                JERRY F. COSTELLO, Illinois
JACK QUINN, New York                 ELEANOR HOLMES NORTON, District of 
VERNON J. EHLERS, Michigan           Columbia
SPENCER BACHUS, Alabama              JERROLD NADLER, New York
STEVEN C. LATOURETTE, Ohio           ROBERT MENENDEZ, New Jersey
SUE W. KELLY, New York               CORRINE BROWN, Florida
ROBERT W. NEY, Ohio                  JAMES A. BARCIA, Michigan
RICHARD H. BAKER, Louisiana          BOB FILNER, California
ASA HUTCHINSON, Arkansas             EDDIE BERNICE JOHNSON, Texas
JOHN COOKSEY, Lousiana               FRANK MASCARA, Pennsylvania
JOHN R. THUNE, South Dakota          GENE TAYLOR, Mississippi
FRANK A. LOBIONDO, New Jersey        JUANITA MILLENDER-MCDONALD, 
JERRY MORAN, Kansas                  California
RICHARD W. POMBO, California         ELIJAH E. CUMMINGS, Maryland
JIM DEMINT, South Carolina           EARL BLUMENAUER, Oregon
DOUG BEREUTER, Nebraska              MAX SANDLIN, Texas
MICHAEL K. SIMPSON, Idaho            ELLEN O. TAUSCHER, California
JOHNNY ISAKSON, Georgia              BILL PASCRELL, JR., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             JAMES P. MCGOVERN, Massachusetts
MIKE ROGERS, Michigan                TIM HOLDEN, Pennsylvania
SHELLEY MOORE CAPITO, West Virginia  NICK LAMPSON, Texas
MARK STEVEN KIRK, Illinois           JOHN ELIAS BALDACCI, Maine
HENRY E, BROWN, JR, South Carolina   MARION BERRY, Arkansas
TIMOTHY V. JOHNSON, Illinois         BRIAN BAIRD, Washington
BRIAN D. KERNS, Indiana              SHELLEY BERKLEY, Nevada
DENNIS R. REHBERG, Montana           BRAD CARSON, Oklahoma
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
MIKE FERGUSON, New Jersey            MICHAEL M. HONDA, California
SAM GRAVES, Missouri                 RICK LARSEN, Washington
C.L. (BUTCH) OTTER, Idaho
MARK R. KENNEDY, Minnesota
JOHN ABNEY CULBERSON, Texas
BILL SHUSTER, Pennsylvania

                                  (ii)

  


            SUBCOMMITTEE ON WATER RESOURCES AND ENVIRONMENT

                     JOHN J. DUNCAN, Jr., Tennessee

SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
WAYNE T. GILCHREST, Maryland         ROBERT MENENDEZ, New Jersey
STEPHEN HORN, California             GENE TAYLOR, Mississippi
VERNON J. EHLERS, Michigan           EARL BLUMENAUER, Oregon
STEVEN C. LaTOURETTE, Ohio           JAMES P. McGOVERN, Massachusetts
SUE W. KELLY, New York               NICK LAMPSON, Texas
RICHARD H. BAKER, Louisiana          BRIAN BAIRD, Washington
ROBERT W. NEY, Ohio                  FRANK MASCARA, Pennsylvania
ASA HUTCHINSON, Arkansas             MARION BERRY, Arkansas
RICHARD W. POMBO, California         ROBERT A. BORSKI, Pennsylvania
DOUG BEREUTER, Nebraska              BOB FILNER, California
MICHAEL K. SIMPSON, Idaho            EDDIE BERNICE JOHNSON, Texas
HENRY E. BROWN, Jr., South Carolina  JUANITA MILLENDER-MCDONALD, 
BRIAN D. KERNS, Indiana              California
DENNIS R. REHBERG, Montana, Vice-    BILL PASCRELL, Jr., New Jersey
Chair                                MICHAEL M. HONDA, California
C.L. (BUTCH) OTTER, Idaho            JAMES L. OBERSTAR, Minnesota
JOHN ABNEY CULBERSON, Texas            (Ex Officio)
BILL SHUSTER, Pennsylvania
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)

  


                                CONTENTS

                               TESTIMONY

                                                                   Page
Abolt, William F., Commissioner of Environment, City of Chicago, 
  Illinois.......................................................     4
Brown, Jack, Environmental Health Director, Wichita-Sedgwick 
  County Department of Community Health, City of Wichita, Kansas.     4
Hoover, Thomas R., City Manager, City of Worcester, Massachusetts     4
McCrory, Hon. Patrick L., Mayor, City of Charlotte, North 
  Carolina.......................................................    17
Pawenski, Christopher S., Coordinator, Industrial Assistance 
  Program, County of Erie, New York..............................     4
Williams, James R., Brownfields Manager, Air Pollution Control 
  Bureau, City of Chattanooga, Tennessee.........................     4

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Blumenauer, Hon. Earl, of Oregon.................................    33
McGovern, Hon. James P., of Massachusetts........................    44
Millender-McDonald, Hon. Juanita, of California..................    44
Otter, Hon. Butch, of Idaho......................................    45

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Abolt, William F.................................................    29
Brown, Jack......................................................    34
Hoover, Thomas R.................................................    37
McCrory, Hon. Patrick L..........................................    41
Pawenski, Christopher S..........................................    45
Williams, James R................................................    48

                        ADDITIONS TO THE RECORD

Murray, Timothy P., Councillor-at-Large, statement...............    55
U.S. Chamber of Commerce, R. Bruce Josten, statement.............    52

                                  (v)

  

 
                  BROWNFIELDS: LESSONS FROM THE FIELD

                              ----------                              


                        Thursday, March 15, 2001

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Water Resources and Environment, Washington, 
            D.C.
    The subcommittee met, pursuant to call, at 9:32 a.m. in 
room 2167, Rayburn House Office Building, Hon. John J. Duncan, 
Jr. [chairman of the subcommittee] presiding.
    Mr. Duncan. I would like to call this hearing on 
brownfields redevelopment to order.
    First of all, I want to welcome everyone to our hearing 
today, and especially welcome our witnesses who have come to us 
from around the country.
    We are very privileged today to have before us 
representatives of communities from all over the Nation who are 
doing the real work of putting abandoned property back into 
productive use.
    There are over 400,000 brownfield sites across the United 
States. In fact, I've seen some estimates as high as 600,000 or 
650,000 sites.
    Even though these sites are often located near existing 
highways, railroads, and water infrastructure, relatively few 
investors are interested in redeveloping them.
    A major reason for the reluctance to invest in brownfields 
redevelopment is uncertainty.
    It is far riskier to develop a brownfield site than to 
develop an open space. A brownfield site may be contaminated, 
and if contamination is found the cleanup sites may be very 
expensive and it may be a very time-consuming process.
    There are ways to reduce these risks, by conducting site 
assessments, providing liability protections, by providing 
cleanup assistance. These tools have been used by States and 
communities to lower the barriers to brownfields redevelopment 
and could be adopted in Federal legislation.
    This is an oversight hearing today. We are not focusing now 
on any specific legislative proposal, but I know there is a 
great deal of interest in moving a brownfields bill during this 
session. We made a lot of progress on this issue during the 
last Congress under the leadership of the former chairman of 
this subcommittee, Congressman Boehlert, who has now become the 
chairman of the full Science Committee. This remains unfinished 
business for the subcommittee.
    There are other Superfund issues that need to be addressed, 
and I hope that we can look at issues such as natural resource 
damages and small business liability to assess the feasibility 
of moving forward with the legislative action.
    As we discuss the best approach to follow and before we sit 
down together and draft language to encourage brownfields 
redevelopment, I think it is appropriate for the subcommittee 
to hear from people out in the field who are actually 
redeveloping brownfields to ensure that whatever legislation we 
craft addresses their needs.
    We will hear from Mr. William Abolt, who is commissioner of 
the Chicago Department of Environment; Mr. Jack Brown, 
environmental health director from Wichita, Kansas; Mr. James 
Williams, the brownfields program manager from Chattanooga, 
Tennessee; Mr. Thomas Hoover, who is the city manager of 
Worcester, Massachusetts; and Mr. Christopher Pawenski, who is 
coordinator, industrial assistance program, Buffalo, New York. 
We then later will hear from Mayor Patrick McCrory of 
Charlotte, North Carolina, who will tell us about Charlotte's 
experiences with brownfields redevelopment.
    The witnesses that we have before us today are out in the 
field taking risks, overcoming obstacles, and achieving 
successes. I know we can learn a lot from them. We want to hear 
about what you've done right, what you've done wrong, and the 
ways that we can help you here in the Congress, and what your 
needs are now. I've read all the testimony. We're going to hear 
about the Heart of Wichita's program, in which they've done 
some very successful things. We're going to hear about some 
innovative things that have taken place in Chattanooga and some 
things the State of Tennessee hopes to do, and, of course, to 
all of these witnesses we do appreciate your coming in.
    Now I'd like to recognize my good friend, the ranking 
member of the subcommittee, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    A lot of folks think of brownfields as an urban issue. I 
represent a District with one urban center, but it is a very 
large District with a lot of small cities and a number of 
counties. Brownfields are very much an issue in my District, 
particularly after having had a lumber and wood products 
industry dispersed throughout many of the rural areas. We find 
that a lot of brownfield sites are in very small cities, towns, 
and even rural areas, so this is a problem which impacts all 
Members of Congress and is a very important issue.
    I think that there is virtually consensus--unusual for this 
Congress--on something. The consensus is that there should be 
financial assistance to communities for the assessment and 
cleanup of brownfields in order to put these sites back into 
use. There is, I believe, a consensus that we should protect 
prospective purchasers, innocent landowners, and contiguous 
property owners from liability. Those provisions I think could 
be part of successful brownfields legislation.
    There is one item that I'm hoping the witnesses can help us 
work through on the so-called issue of finality. The question 
is, when sites are cleaned up under the aegis of a State agency 
what role does the Federal Government play?
    My own personal first shot at this is that if the Feds 
approve the plan and approve that it was executed properly they 
wouldn't get another bite at the apple. Sometimes the State, 
under State law, conducts an inadequate cleanup without the 
involvement of the Feds, and the site continues to threaten 
adjacent property owners or human health. In some cases in the 
northwest, the plumes will move toward our rivers; imperiling 
the river's resources. In these cases there is a question about 
how and when the Feds come back in and how that is dealt with.
    The protections would still extend, in my vision, to the 
innocent landowners and purchasers, but we would still have the 
authority to go back after the original polluters.
    This is an issue where there is some disagreement and there 
has been provided some contention in the past. I'm hoping that 
the witnesses today can help us find our way through this issue 
so we can find a consensus and add it to the other areas where 
I believe there is already broad consensus.
    Thank you, Mr. Chairman.
    Mr. Duncan. Thank you, Mr. DeFazio. Mr. Horn?
    Mr. Horn. Thank you, Mr. Chairman.
    This is a key measure of our environmental programs, and I 
look forward to the testimony and the questioning.
    Thank you very much.
    Mr. Duncan. Thank you.
    Mr. Blumenauer?
    Mr. Blumenauer. No questions, Mr. Chairman.
    Mr. Duncan. Dr. Ehlers?
    Mr. Ehlers. Thank you, Mr. Chairman.
    I appreciate your holding this hearing. I have been a 
strong supporter of brownfields for some time. It is absolutely 
essential if we are going to protect our green spaces that we 
activate a good program for dealing with brownfields, and I 
hope eventually rewrite Superfund so that we can take care of 
the problem, there, as well.
    I thank you for holding the hearing.
    Mr. Duncan. Thank you very much.
    Mrs. Kelly?
    Mrs. Kelly. Thank you, Mr. Chairman.
    Let me just say that I think this is an issue of critical 
importance for our Nation, as a whole.
    As we talk about the need for saving green spaces, we also 
need to look at what we have in terms of spaces that we might 
be able to rehabilitate for human habitation and for use and 
put as tax ratables on our communities' rolls. I think making 
progress on this issue is something that will require local as 
well as State and Federal working together, partnerships. And 
so I am delighted that you, as panelists, are here today to 
talk about this with us, and I thank you very much for allowing 
me to be here, Mr. Chairman.
    Mr. Duncan. Well, thank you very much. You've made a good 
point there. We're looking for the proper partnership between 
the local and State and Federal Governments, and that's what 
these witnesses I think are going to talk to us about.
    We do proceed in the order in which the witnesses are 
listed on the call of the hearing, and that means, Mr. Abolt, 
you will be first, and you can begin your statement, please.

 STATEMENTS OF WILLIAM F. ABOLT, COMMISSIONER OF ENVIRONMENT, 
  CITY OF CHICAGO, ILLINOIS; JACK BROWN, ENVIRONMENTAL HEALTH 
   DIRECTOR, WICHITA-SEDGWICK COUNTY DEPARTMENT OF COMMUNITY 
HEALTH, CITY OF WICHITA, KANSAS; JAMES R. WILLIAMS, BROWNFIELDS 
  MANAGER, AIR POLLUTION CONTROL BUREAU, CITY OF CHATTANOOGA, 
 TENNESSEE; THOMAS R. HOOVER, CITY MANAGER, CITY OF WORCESTER, 
   MASSACHUSETTS; AND CHRISTOPHER S. PAWENSKI, COORDINATOR, 
    INDUSTRIAL ASSISTANCE PROGRAM, COUNTY OF ERIE, NEW YORK

    Mr. Abolt. Good morning, Chairman Duncan. I'd like to thank 
you, the ranking member, and the members of the committee for 
the opportunity to come talk with you today about Chicago's 
brownfields program and what Mayor Daley has done to apply the 
idea of recycling well beyond cans and bottles and apply it to 
the communities in which we live.
    Under the Mayor's leadership, he has implemented one of the 
most comprehensive brownfields programs in the Nation based on 
that idea of recycling our land, and that program is a program 
that was created out of necessity. We simply cannot have 
development in the City of Chicago without addressing the 
fundamental problem of environmental contamination. In fact, 
our specific strategy of bringing industrial jobs back to the 
City and making sure that we have jobs for all Chicagoans is 
based on brownfields redevelopment.
    We have been successful in cleaning up a number of sites. 
At this point we have over 20 sites completed and 70 underway. 
Over 1,000 acres are in the process, 2,200 jobs have already 
been created, and several million dollars have been added to 
the city's tax rolls. We have been able to do that by getting 
down to the business of cleaning up sites, identifying and 
eliminating obstacles to those cleanups, and, finally, through 
partnerships. Brownfields simply cannot be cleaned up without 
partnerships--strong partnerships with the Federal Government, 
particularly USEPA, the Department of Housing and Urban 
Development; Department of Energy and U.S. Army Corps of 
Engineers, but also with the private sector and the Illinois 
Environmental Protection Agency, at least in our case.
    We are now trying to take our program one step further and 
not just focus on cleaning up problems of the past, but how to 
develop in a way that we learn the lessons of those past 
problems and begin to chart a new course for industrial and 
energy development in the City of Chicago, and we hope cities 
throughout the United States.
    I want to provide for you three specific examples of 
projects that we've undertaken that I think indicate are good 
examples of what has worked for us and I think what works for 
others.
    Those three examples focus first on a model of green 
development in the City of Chicago, where we've looked at our 
problems of environmental contamination as opportunities and 
used changes in the energy marketplace to bring new 
development, new design, and over 100 jobs to a site that was 
excessively contaminated.
    Secondly, I want to talk about how the City, in cooperation 
with Governor Ryan and the State of Illinois, is taking 
ecological and industrial restoration--we're trying to bring an 
entire region back together.
    And then finally I want to talk about tackling some of the 
small neighborhood brownfields that may not seem like a lot 
when looked at, in the city as a whole, but can be absolutely 
devastating unless we clean them up for neighborhoods.
    The first project was a contaminated site with over 500,000 
cubic yards of construction demolition debris on it that had 
gotten out of control. The owner declared bankruptcy and got 
out of the business of crushing rock. The City, out of 
necessity, took ownership of the site, opened it up as a rock 
crushing facility, took all of the recycled material, used it 
in our own infrastructure projects, and saved the City 
government over $1 million, and then focused on how we could 
turn that eyesore into an asset.
    Working with our local chapter of the American Institute of 
Architects, our local utility, and Department of Energy, we 
attracted to that site a new manufacturer of solar panels 
through a City commitment to buy and establish renewable power. 
The building, itself, that was left on the site is about to 
open up in about the next 60 days, and is really, we think, a 
national model of how to do energy efficient and 
environmentally friendly design.
    Besides 100 jobs in solar manufacturing, it will also house 
Mayor Daley's community gardening program, which trains about 
25 hard-to-employ people a year in community gardening skills, 
puts them to work in neighborhoods throughout the City, and 
then places them in permanent jobs.
    So the idea is to take a site, recycle it and bring back 
green jobs to the site. Look what we can do with a property.
    The second one, in the summer the Mayor and the Governor 
announced a program to take the southeast side of Chicago, over 
20 square miles, and bring back both ecological and industrial 
resources. It is the home of our former steel industry, as well 
as over 3,000 acres of wetland. The Mayor and the Governor have 
committed over $40 million to bring those properties back 
together, to reconnect the hydrology, and to recognize that 
ecological restoration of parcels can actually be an amenity 
that attracts additional businesses.
    Since their announcement, Ford has announced that it is 
coming to town and creating over 1,000 jobs there. We are going 
to take a site with the State that was very close to becoming a 
Superfund site and, with the cooperation of Illinois EPA and 
USEPA, we are, instead, turning it into the largest solar-
generating station in the United States, with solar panels made 
from the site I just described and a large landfill site.
    The third is a program to successfully tackle neighborhood 
brownfields through cleanup and redevelopment of abandoned 
service stations. We had about 500 abandoned service stations 
in the City of Chicago. Using a combination of City funding and 
enforcement tools, we have been able to turn around over 100 of 
those sites already, some cleaned up by the City and others 
cleaned up by the private sector. They have been used for 
everything from parks to property to day care to new retail 
development.
    All of those projects have been achieved through a variety 
of tools, including Federal, State, local, and private 
investment. We have learned several lessons from it. I want to 
share a couple of those lessons with you and then I will close.
    First, the assessment grants that have been provided to us 
from the Federal Government are particularly valuable in 
figuring out what the cleanup cost of properties are going to 
be. There is some opportunity to eliminate some of the 
duplicated costs between State and Federal requirements. We 
would like the committee to look closely at that so that 
Federal dollars can go much further, and we can look at more 
sites.
    Second, the issue of financing cleanups. We need to 
recognize that not every brownfield site works as a strict 
economic deal. There is an incremental cost that needs to be 
covered, probably by governmental funding and action. It can be 
provided through either dollars or through tax incentives, but 
we've got to address the fact that some of these development 
deals are upside-down, and we should look at that upside-down 
problem as an infrastructure problem.
    Cleaning up a site is no different than building a sewer or 
building a road. If we eliminate the obstacles and provide the 
resources, we can get sites cleaned up.
    Finally, we've got to deal with the issue of Superfund 
liability, we believe, particularly for municipalities. We have 
found that a key to the success of our brownfields program is 
based on one idea, and that is the City's willingness to step 
into the chain of title to relieve liability for property 
owners.
    We do believe that if cities take that step and do all the 
right things in cooperation with the State and the Federal 
Government, they need to be provided some level of protection 
in cooperation with the State and Federal Government. I think 
if we do that we'll see more brownfields cleaned up and we'll 
eliminate the kind of amazed looks that we still get from 
private and government parties who just can't believe that the 
City would take the step of stepping into the chain of title.
    Again, I thank you very much for the opportunity to be 
here. I'd be happy to answer any questions.
    Mr. Duncan. Thank you very much, Mr. Abolt. Mr. Brown?
    Mr. Brown. Good morning, Mr. Chairman, members of the 
committee. I am Jack Brown, environmental health director, city 
of Wichita, Kansas, and I appreciate the opportunity to appear 
before this committee.
    I'd like to share with you what I consider one of the early 
brownfields projects in the United States. Many years ago--it's 
not that many years ago, but about eight to ten years ago our 
city was faced with a challenge from a legacy of industrial 
practices resulting in groundwater contamination.
    As you well know, environmental contamination has a 
dramatic impact on the value of real estate, creates 
uncertainty in the marketplace, and when the issue of cleanup 
costs and liability appear it really creates problems in terms 
of dealing with these sites.
    In 1990, our city was faced with pollution that turned out 
to impact 8,000 acres of land in our downtown and surrounding 
residential areas. This particular parcel of land or parcels of 
land had a tax base of about $86 million.
    When we looked at this site, we were just in the beginnings 
of a $300 million downtown revitalization. Well, the fact that 
we found this contamination pretty well put that on hold. 
Lenders, realtors were all telling us that no one was buying 
property because of the Superfund liability issues, and we 
looked at the options that were available to us. There were 
potential environmental threats, health threats. Our 
revitalization had been stalled, property values were going 
down. The city was faced with a situation that we would be 
losing revenue from our tax base.
    As a consequence, it is a story that has been told before, 
but we established a number of agreements with the State and 
EPA, local lenders, and developed a financial plan to address 
the cost of the cleanup--the investigation and the cleanup--
through tax increment financing, all the time wanting to look 
at the ultimate payer of these costs as being the polluters 
that caused the problem.
    We made these agreements. One of the most unique aspects of 
our early program was to establish, much as the representative 
from Chicago stated, some type of local initiative and local 
responsibility for some of this liability, and we established 
an agreement with many of the lending institutions in our 
community to honor a certificate and release of environmental 
liability.
    What this meant was that we would grant an innocent 
property owner a liability release for the contamination, and 
they could go on as soon as the banks accepted this to purchase 
property and expand existing properties, whatever the case may 
be. It pretty well cleared liability issues.
    We have been in this project for several years. We are 
starting cleanup. We have made settlements with a number of the 
responsible parties in the area. And we feel we have done a 
very good job in taking an area that was depressed, didn't look 
like it had much future because of this contamination, took a 
local initiative, and we able to turn it around.
    We have now developed an Old Town area with restaurants, 
stores, that type of thing. We have a couple of Federal 
facilities. The Federal Government has looked at this project 
and said, ``We accept this approach.'' We have also had a State 
office building that has been located in the area.
    As a consequence of all of that, we have expanded our 
brownfields program. Well, we've expanded that particular 
program to another area of our community known as the ``north 
industrial corridor.'' The success of this original project, 
which is called ``Gilbert & Mosley'' project, led to the EPA 
allowing us to de-list an NPL site and apply the same model in 
that particular area.
    We now have roughly ten square miles of the center of our 
city under this, what I consider one of the original 
brownfields programs.
    In addition to that, these concepts of addressing liability 
issues have been expanded into our brownfield program and, as 
the chairman mentioned, the heart of Wichita program is our 
latest initiative. Basically, it is a package of 50 different 
recommendations that have been made to our City Council, and 
they have accepted it. It is everything from changing codes to 
dealing with environmental issues, putting together financial 
packages to revitalize and redevelopment not only our downtown 
area, but approximately an area that is the old Wichita, five 
square miles of downtown Wichita.
    We've been very successful in that program, at least in the 
initial phases, and look forward to dealing with EPA in terms 
of the assessment grants. That's very critical, as has been 
mentioned. The assessment grants and cleanup grants and funding 
in those particular areas will be a vital part of our heart of 
Wichita program.
    Still, I think there are some things that remain to be 
done. Clarify authority for cities on this liability release 
when we're dealing with this contaminated sites. There needs to 
be more funding, as we've said--maybe a little less 
bureaucracy--and allow cities to continue to take these 
initiatives and be able to solve their own problems.
    I think that that concludes my remarks. Some of the remarks 
made by the representative from Chicago are along the same 
lines as mine. I would be happy to answer any questions.
    Thank you.
    Mr. Duncan. Thank you very much, Mr. Brown. Mr. Williams?
    Mr. Williams. Thank you, Chairman Duncan, for the 
invitation to be here today. As a proud Tennessean, I applaud 
you, Congressman Zach Wamp, and the distinguished members of 
this subcommittee for this opportunity to address you to 
provide positive evidence of the impact Federal, State, and 
local dollars have had on the brownfields reclamation process 
in Chattanooga, Tennessee.
    I am James R. Williams, and I am the brownfields program 
manager for the city of Chattanooga. Both our Mayor Jon Kinsey 
and County Executive Claude Ramsey send their regrets that they 
are not able to be here today to testify.
    I wish to speak about our local brownfields efforts. In 
1998, city and county governments designated our local Air 
Pollution Control Bureau to establish a local brownfields 
program. This program, focused primarily on the inner-city 
neighborhood of Alton Park, was created to address tax revenues 
lost when industry left this neighborhood, the need to develop 
industrial sites for economic development, the need to create 
jobs, and the need to mitigate the environmental risks 
associated with idle, vacant properties.
    Both governments, working in a bipartisan way and 
committing funding, received additional funding from a 
partnership developed by five local utility providers.
    Throughout the United States, cities are taking on the 
challenge of smart growth. Redevelopment of brownfields sites 
is an integral component of smart growth. Redevelopment of 
these sites reduces contamination and preserves undeveloped 
greenfields sites and reduces the need for additional 
infrastructure while expanding the local tax base.
    Before continuing with specific aspects of our program, I 
think it is necessary to develop a context for its develop. 
Chattanooga's successful air pollution reduction actions are 
widely recognized as the springboard to current local 
sustainable development initiatives. Over the last 30 years, 
our city has cleaned up its environmental act, and many events 
helped to make this change, but it was one process of visioning 
that acted as the main catalyst. Visioning, or ``charrette,'' 
is the process of facilitated public dialogue designed to bring 
together various community stakeholders with different points 
of view and establish understanding where differences exist. 
The result is community census.
    Census developed through the visioning process allows the 
creation of a set of goals and projects and provides guidelines 
for those whose test it is to implement them. The visioning 
process enables the developments of plans of action necessary 
to experience real results.
    My complete written testimony cites successful examples of 
our local brownfield redevelopment efforts generated through 
our local visioning processes; however, for the sake of 
brevity, I will forego the specific details of these successes 
in my verbal testimony today.
    If smart growth in the form of environmental protection and 
community development is our destination, then economic 
development is the vehicle for getting there. The bad news is 
that the redevelopment of the 400,000 to 600,000 brownfield 
sites in this country is a major effort. The good news, 
however, is that there is private investment capital available 
for the task. Smart growth and economic development are co-
related. It brings groups who may have been antagonists in the 
past toward working together for common goals.
    In Chattanooga we are fortunate to have a legacy of 
successful brownfield projects throughout our greater community 
to provide the foundation for our recently-created brownfields 
office. Clearly, it was visioning that was our common thread of 
success, and this process now guides the implementation of our 
program.
    In the last 18 months, our program has secured two Federal 
EPA grants, the 200,000 brownfields demonstration assessment, 
and the new 100,000 Superfund redevelopment initiative grants.
    Additionally, and most important, the brownfields program 
is a partner in the successful 35 million Hope Six 
revitalization grant awarded to our local housing authority for 
Spencer McCallie Homes, a public housing development in the 
heart of our pilot community.
    This partnership of Federal dollars targets a community 
that has a diverse mix of brownfield redevelopment channels 
such as abandoned manufacturing sites, old residential 
neighborhoods, and a need for economic stimulus in the 
community.
    This three-square-mile area has many, many acres that could 
be developed for residential, industrial, or commercial use. 
Located within the communities are employment centers that have 
had recent expansions of operation; however, it still remains 
one of the most economically depressed areas in our city.
    As part of the grants' work plans, we recognize a need for 
a complete comprehensive redevelopment and revitalization of 
this community. Fortunately, our planning process received full 
support and commitment of the mayor and county executive, our 
City Council, and the Hamilton County Commission. Our elected 
officials worked in a bipartisan way to fuel a resident-driven 
revitalization plan.
    Over the past year, John Kinsey initiated a public meeting 
in this target community attended by over 250 persons. The city 
and county then funded a four-day charrette. The consultant 
team facilitated a visioning planning process with over 500 
diverse stakeholder participants, including the participants 
from State of Tennessee and USEPA region four. Our resulting 
master plan was adopted by the City Council in October.
    Without this citizen involvement, without the partnering 
between various levels of government, serious conflict, 
mistrust, and delaying interventions may have occurred, which 
would have made it difficult for a positive change to occur; 
however, currently new investment has begun in this community, 
with the stage being set for more. Our processes enhance 
accountability, empowerment, continued involvement, which is 
the Chattanooga way.
    The goal of our program is to facilitate these brownfields 
using brownfields remediation and reuse of active community 
participation and involvement. Our charrette was an important 
first step. Now the stage is set for the next critical 
elements, which are securing additional funding and developing 
clarity about liability issues.
    Uncertainty is the single impediment to the brownfields 
development. Unfortunately, current environmental law creates 
uncertainties about potential liabilities. This uncertainty may 
be minimized somewhat through intensive, up-front environmental 
investigations. Even if the investigations are conducted, there 
is no guarantee that redevelopment will occur unless there is a 
potential way to know the negative impacts; thus, the 
uncertainty creates inaction, capital goes elsewhere, leaving 
brownfields sites undeveloped.
    Legislation has been drafted by the State of Tennessee to 
minimize uncertainty caused by State environmental laws and 
regulations. The legislation is designed to clarify the 
liability for future owners and current owners. Prospective 
purchasers and developers will be able to enter into a firm 
voluntary agreement with the State of Tennessee to accept 
responsibilities. If cleanup criteria is predicted on future 
land use patterns, mechanisms can be made available to ensure 
that the land use will be limited. State voluntary agreements 
foster these new uses of brownfield sites.
    The role of the Federal Government is to facilitate 
business, communities, and local governments in accepting their 
responsibility for smart growth redevelopment of brownfield 
sites. It is critical for the Federal Government to expand its 
role. Current agreements between prospective purchasers and the 
State to conduct voluntary cleanups are not protected from 
future additional requirements by the Federal Government. This 
creates another form of uncertainty that inhibits 
redevelopment.
    The Federal Government can support the efforts of State and 
local government through grants for the creation and operation 
of municipal brownfields programs to jump start brownfield 
redevelopment. Private investors will also be able to redevelop 
sites through normal means, while some sites have negative 
value. The great majority of these sites would never be 
redeveloped without investment of public dollars.
    The Federal Government has a responsibility to appropriate 
money targeted specifically for brownfield develop. Further 
existing programs should make brownfield redevelopments a 
priority.
    In summary, the development of our local brownfields has 
occurred in a variety of ways. Environmental factors, alone, do 
not necessarily control our processes. There are factors beyond 
environmental contamination that drove these projects. In most 
cases, economic factors were prime determinants of each 
project. Our local brownfields projects offer the best 
opportunity to not only recycle land, but better utilize 
existing infrastructure. Each of our successes have had the 
positive components of partnership with all levels of 
government, public and private investment, combined with a 
successful public input process.
    Each of these assessments require the necessity of 
coalition building and utilize the charrette's process. This 
same methodology will continue to be the prototype for our 
local brownfields program. Our design is simple: bring the 
community together, hear a plan, and establish coordinated 
solutions, which is the Chattanooga way.
    Again, on behalf of the citizens and elected 
representatives of the city of Chattanooga and Hamilton County, 
I thank this subcommittee for this opportunity, and I will be 
pleased to answer your questions.
    Mr. Duncan. Thank you very much, Mr. Williams.
    We've moved a little faster than expected through the first 
part of the hearing, and so I would like to ask unanimous 
consent--Congressman Wamp wanted to introduce Mr. Williams, and 
he got here for just about all of Mr. Williams' testimony, but 
I would like to call on Congressman Wamp at this time for any 
remarks he wishes to make.
    Mr. Wamp. Thank you, Chairman Duncan, for the courtesy. I 
will be brief.
    This subcommittee is really fortunate to have Chairman 
Duncan as its chairman in the future. He is really a great 
leader, and what he did for aviation over the last six years 
I'm sure he is going to do for water resources.
    Thank you for hearing Secretary Whitman's call for action 
on brownfield redevelopment, and thank you for allowing a 
distinguished Tennessean to come and testify today and 
recognizing that we have--Earl Blumenauer knows, because he has 
been there--in the city of Chattanooga some great brownfield 
redevelopment opportunities.
    This particular community that James Williams grew up in 
and his family has served in so well was contaminated in large 
part by the Federal Government, so it is a perfect brownfield 
redevelopment opportunity. We have had a national priorities 
listing site there to clean up Chattanooga Creek. That was 
initiated in this subcommittee when I served on the 
subcommittee several years ago.
    I'm not going to introduce him because it would be like 
introducing the Chicago Bulls after the game. I had a group at 
the Capitol I was taking through. Chairman Duncan knows all too 
well, when you've got a bunch of constituents you've got to try 
to be there for them.
    Thank you for the courtesy, and thank you, James Williams, 
for your leadership back home.
    He used to block my little brother's shots in basketball 
games as they went to regional championship, and his team 
prevailed. He's a distinguished basketball player and graduate 
of Vanderbilt University. He has served our city very well in 
banking and small business, and now in government, handling our 
brownfields redevelopment opportunities.
    We believe we have a lot to offer and we believe that the 
Secretary is exactly right in moving forward with this most 
important program of brownfields opportunities all across the 
country.
    I hope this subcommittee is instrumental in shaping new 
policies that will make it easier to put these unproductive 
assets back into productive use.
    I thank you very much for the unanimous consent and I yield 
back.
    Mr. Duncan. Thank you. Thank you very much, Congressman 
Wamp, for taking the time out of your very busy schedule to be 
here with us.
    Next we will hear from Mr. Hoover.
    Mr. Hoover. Thank you very much, Mr. Chairman.
    On behalf of the city of Worcester, Massachusetts, I thank 
your honorable body for the opportunity to give testimony on 
the issue of brownfields redevelopment and the city of 
Worcester's effort to date in order to conquer this major urban 
problem.
    I also want to take the time to thank Congressman James 
McGovern for his tireless legislative efforts regarding 
brownfields and related urban issues.
    The city of Worcester is the second-largest city in New 
England. Together with our surrounding communities, it 
represents a historic industrial center which gained prominence 
as a major producer of manufactured goods that were critical to 
the advancement of the American industrial revolution.
    Worcester's legacy as a city of innovation and invention 
continues today, as we enter the new millennium. Named an all-
America city in 2000 by the National League of Cities, the 
city's innovative approaches to social, economic, and quality 
of life issues have been nationally recognized.
    As with similar urban centers across the United States, and 
particularly in the northeast, a major deterrent to continued 
growth and expansion of our economic base is the lack of 
readily-available and-developable industrial sites in 
Worcester.
    The controlling factor in the lack of suitable sites is 
contamination, and that's brownfields contamination. Virtually 
all of the city's industrially-zoned land has been previously 
developed, and, of the 2,089 acres of industrially-zoned land 
in Worcester, approximately 25 percent of over 200 sites are 
classified by the Massachusetts Department of Environmental 
Protection as experiencing various levels of contamination.
    It is well documented that abandoned and/or under-utilized 
brownfields sites cause economic distress in surrounding 
neighborhoods, which lead to a number of traditional inner-city 
social, health, and safety problems.
    Worcester's inner-city neighborhoods, which were once 
anchored by large manufacturing plants, are now fractured by 
the vacant industrial complex that previously provided jobs and 
stability to the area.
    It is clear that the complexity of the brownfields problem 
exceeds the normal market conditions of private enterprise. In 
many cases, the cost associated with site remediation exceeds 
the base market value of the property. Complex tax and 
associated land title issues also exacerbate our ability to 
offer construction-ready sites, due to these environmental 
problems.
    Given these obstacles, it is clear that without continued 
public assistance brownfields properties will remain dormant 
and a major deterrent to our revitalization efforts.
    On the local level, the city of Worcester has been very 
proactive in addressing brownfields issues. In 1995, the city 
sponsored legislation which established the Central 
Massachusetts Economic Development Authority, better known as 
CMEDA. This is a regional brownfields redevelopment model based 
upon a revolving fund and whose membership includes the city of 
Worcester and surrounding communities. CMEDA is currently 
limited in its operation due to the lack of financing.
    A major investment of some $40 million in city and State 
funding was also made in Worcester's central business district 
in the mid 1990's which resulted in the assemblage of 30 acres 
of contaminated brownfields properties. The city expended 
approximately $12 million for cleanup of these properties that 
led to the construction of a $240 million hospital facility in 
the center of our downtown. The Worcester Medical Center is now 
open and adding jobs and tax base to the city of Worcester.
    Other projects in the planning stage are the redevelopment 
of South Worcester Industrial Park, which is a 25-acre former 
industrial complex, and also the Gardner/Kilby Hammond project, 
a joint proposal to develop a new Boys and Girls Club, athletic 
fields for Clark University, and 100 units of new housing in 
the city's Main South district. Again, we are faced with 
environmental cleanup issues which hamper our progress with 
these plans.
    The city has commissioned preliminary environmental 
assessments on these properties which indicate that the cost to 
remediate the south Worcester industrial area, alone, 
approaches some $12 million. The city has also completed 
demolition of the former Coes Knife Complex, which was an old 
cutlery manufacturer, and is faced with approximately $500,000 
in environmental cleanup costs to complete what is planned to 
be a neighborhood recreation area.
    Other local brownfields redevelopment projects include a 
recent 130-room Marriott Courtyard Hotel, which was completed 
in 1999. This $20 million private initiative was made possible 
utilizing the ownership and conveyance authority of the CMEDA 
and was completed under the guidance of a local private 
development corporation.
    The city has also adopted legislation which waives local 
fees for brownfields redevelopment and has adopted the 
provisions of Massachusetts general laws, which allow 
communities to abate delinquent taxes to promote redevelopment 
of brownfield properties.
    Finally, in January of this year my staff completed a 
comprehensive brownfields redevelopment strategy which outlines 
Worcester's future goals relative to brownfields reclamation. 
Financing strategies are also a component of this particular 
plan.
    In short, the city of Worcester, in partnership with the 
State and the Federal Government, has been making significant 
progress in the area of brownfields redevelopment. In order to 
continue this momentum, it is imperative that the public sector 
continue to commit resources and technical expertise to the 
issue of brownfields redevelopment.
    While the level of local, State, and Federal assistance to 
date has been significant, I respectfully request that this 
committee review existing appropriations with a commitment 
towards developing additional resources which will address the 
financial gap that prevents private investment in brownfields 
sites.
    In closing, the city of Worcester has historically been a 
leader since the days of the industrial revolution. Now, as the 
Information Revolution brings wealth to suburban communities 
unencumbered by the past, we are seeking only the tools that 
will position Worcester to support itself in the future.
    Sufficient land to pursue our current economic agenda is a 
prerequisite to our collective public goals, and brownfields 
reclamation will play a major role in our efforts.
    I thank you very much.
    Mr. Duncan. Thank you very much, Mr. Hoover. Mr. Pawenski?
    Mr. Pawenski. Thank you, Mr. Chairman, distinguished 
members of the subcommittee. I want to thank you for this 
opportunity to speak before you on our redevelopment issues.
    My name is Chris Pawenski. I'm Erie County's coordinator of 
industrial assistance program. Basically, I'm the facilitator 
for the redevelopment of brownfields.
    County Executive Joel Giambra sends his regards. He fully 
supports any Federal regulation and assistance that will 
expedite the redevelopment of our former industrial properties 
and our urban cores, therefore, preventing development being 
forced out to our valued greenfields.
    At this time, though, I'd like to just highlight a few of 
the items in my testimony, since you already have copies of it, 
and get to the heart of the matter why I am here--that is, to 
help you help us.
    The County of Erie, in cooperation with all the local 
government entities, has been spearheading the revitalization 
of 2,000 acres of contiguous brownfields that we have. We have 
set our highest priority on a former Bethlehem Steel site, 
which I'll talk about today.
    This Bethlehem site is in the City of Lackawanna, which 
currently has an approximate population of 16,000 people, so it 
is a small urban center. This facility, at its peak, employed 
about 25,000 people. It was the highest steel-producing 
facility during World War II, at the same time the city also 
had the highest per capita of veterans in the country.
    Today this facility employs less than 1,000 people. When it 
closed in 1983, over 20,000 people became out of work. They 
(Bethlehem steel) demolished all their buildings so they 
wouldn't have to pay taxes on them, so now there's over 1,100 
acres of vacant expanse land.
    Neighboring property values have plummeted over 50 percent. 
Population has decreased by 40 percent. The neighboring 
community has become a core of social and environmental 
concerns.
    I mention this because I believe it should be noted that 
not only do the events that lead up to creation brownfields 
affect the property, but it should be highly noted how it 
affects the surrounding community.
    The county decided to focus a 102-acre parcel to create an 
industrial park to get things moving. We called together a task 
force very early on, and this was the core to some of our 
successes--getting early involvement of all agencies, including 
the Federal, the State, and the local governments, as well as 
private. Because of this early involvement, we learned of a 
brownfield initiative pilot program, and we were accepted as 
one of four sites in the country for this new initiative. As 
EPA brought it to us, we had them in early involvement. This is 
very key.
    The Steering Committee was created with the State 
government, local, and in the headquarters--EPA's headquarters 
office, regional office, and the county government. Quickly 
from this pilot program we developed short-term and long-term 
goals. Our short-term goal was to remove the 100-acre site from 
a EPA RCRA order and to get into a State voluntary cleanup 
program. Our long-term goal was to set up some type of 
procedure that we could continue after this first phase, 
continue it on to further redevelopment of this property and 
other parts of the 2,000 acres of contiguous brownfield 
properties.
    It is important to note our successes, though short they 
might be so far. Within ten months we reached our first short-
term goal--removing the property from the RCRA order of 
consent, although we learned we could have easily have done 
this eight years previously if somebody would just ask the 
question, ``Can we do this?'' All Bethlehem Steel had to do was 
send in a letter requesting it and it could have been done. It 
took us eight years to find that out.
    The second goal that has been achieved is Bethlehem and the 
State of New York are negotiating what they call a ``voluntary 
consent order.'' It is not the State's cleanup program--and 
I'll get into why it is not, but it is similar. And it is 
because we were all able to sit together and put peer pressure 
upon each other, the governmental agencies putting peer 
pressure onto them, that we were able to get them to sit down 
together.
    Our long-term goals continue, but you'll find out some of 
our barriers will not let them be complete. We continue to try 
to achieve them. Whether we will or not, we'll find out. But we 
continue--even though the pilot program has ended, the task 
force, the Steering Committee, and individuals continue to 
maintain contact, because we, as a group, want to see success 
of this property being turned around because of the location it 
is in and the effect it has on its community.
    The barriers--two greatest barriers we encountered: the 
State has a policy of not letting properties under EPA's 
interim status into their voluntary cleanup program. They 
agreed to let Bethlehem start negotiations under a consent 
order--this was something unique and never done before by the 
State--while we worked at removing the property from interim 
status--we took a two-road path to reach our goals.
    The unfortunate problem was that this State policy was 
based on urging of EPA, of the Federal Government, when they 
developed their policy. This is not consistent throughout the 
country. Some EPA regions encourage States to allow interim 
status properties into voluntary cleanup programs, some don't. 
Bethlehem Steel wanted to get in. They're not asking for public 
assistance financially. They'll spend their own money. But they 
wanted to get into the State's voluntary cleanup program. They 
weren't allowed to.
    The second-greatest barrier I thought was there was the 
lack of proactive direction when we encountered gray areas.
    As we tried to get the interim status removed, everybody 
involved--all the technical people, all the managers from the 
EPA region, Office of Solid Waste and Emergency Response here 
in Washington, the local governments--all agreed, ``Let's amend 
the interim status.'' One-page letter, just says we did remove 
the order with a property title survey, was amended so we could 
get into the official voluntary cleanup program.
    After months of working at this, we were told by Federal 
attorneys that this would not be allowed. I asked why. They 
said, ``It's not allowed.'' I asked for a copy of the law or 
regulation. I was told there was not one. I asked, ``Why not? 
Why can't we do it?'' They said, ``There's nothing that says 
you are allowed.''
    Basically, as I told the Conference last year, EPA 
Conference, after months of us working together as a team, 
stopping the fire drills, getting in the car together, figuring 
out which direction we wanted to get into, we came across a 
light signal that turned blue. Nobody knew what that meant, but 
the team decided to move forward. The attorneys decided to take 
the keys out of the car because they didn't know what it meant.
    This cannot go on. We need to have proactive commitment, 
what's best for the community.
    Finally, the heart of the matter is how can you help us and 
how can we help you. How can Federal assistance--what can you 
to do help expedite the redevelopment of brownfields.
    The first thing on the list you'll see is proactive 
direction by the leadership of this subcommittee or Members or 
Secretaries in Federal Government that when we hit gray areas 
we seriously look at what is best for the community if we are 
within the laws and regulations that allow us to move forward. 
Let's not always take the safest way out by not doing anything.
    Secondly, communities should not have to wait to be 
selected to a brownfield program or pilot program to move 
forward. We were fortunate to be one of four communities 
selected in the country. If we were not selected, we would not 
be moving forward and in removing of these orders. There should 
be a permanent program in place that might have set criteria 
that when a community is ready to move forward it applies for 
that program.
    This program, the initiative that we are involved with, 
cost was the time of the probably six employees every two weeks 
on a two-hour conference call. I can imagine communities that 
are out there that weren't selected that might have been moved 
forward if this was a permanent program.
    I strongly urge that pilot programs that show success 
become permanent, especially when the cost is so insignificant.
    One of the keys to this program was everybody coming 
together in Buffalo to visit the site for two days and getting 
behind closed doors--holding a workshop, getting behind closed 
doors, rolling up our sleeves, and agreeing not to leave until 
we could get in the right direction.
    One of the other things that we urge you to do is think 
about providing funding for communities that have significantly 
been affected by brownfields. As I mentioned, the city of 
Lackawanna is significantly affected. Maybe a special criteria, 
but a special funding source maybe to assist them similarly as 
you give community development block grant funds out. I think 
that would be very important to us, and we strongly encourage 
that.
    Next is provide significant funding for remediation of 
brownfields. Funding is available for assessments and planning, 
but not to carry it out. Communities such as Lackawanna do not 
have financial resources. It is not uncommon for $100,000 an 
acre for remediation. This could be a partnering effort.
    Mr. Duncan. Mr. Pawenski, thank you very much. We've got to 
move on to the next witness and to questions from Members.
    We are very honored and pleased to have with us the mayor 
of Charlotte, North Carolina. We had him listed as the second 
panel because of a plane schedule, but he is now with us.
    Mayor Patrick L. McCrory, we are certainly honored and 
pleased to have you with us. I started coming to Charlotte 
many, many years ago when I was bat boy for the Knoxville 
Smokies baseball team for almost five seasons. That was back 
when Charlotte was a very small city. A man named Phil Howser 
owned the baseball team. Anyway, I've been to Charlotte many 
times since then. It has really grown tremendously and seems to 
be doing real well.
    We're glad to have you with us here, and you may begin your 
statement.

STATEMENT OF HON. PATRICK L. MCCRORY, MAYOR, CITY OF CHARLOTTE, 
                         NORTH CAROLINA

    Mayor McCrory. Thank you very much, Mr. Chairman.
    I want to compliment you and your city of Knoxville also. 
Victor Ash is a personal friend of mine, and he just does an 
outstanding job as your mayor for many years, and I hope for 
many years to come, also.
    I am actually wearing two hats today. One is as chairman of 
the U.S. Conference of Mayors' Environmental and Energy 
Committee, which I have been honored to be chair of that 
committee now for three years, and also as mayor of the city of 
Charlotte, where I am now in my sixth year as mayor of that 
city.
    Let me first speak on behalf of the mayors. Throughout this 
Nation, whether you are from Knoxville or whether you are from 
Texas or whether you are from Portland, Oregon, or Detroit, or 
many of these outstanding cities that are testifying here 
today, every mayor and every city staff has a passion about 
brownfields. In fact, every one of these people can speak 
without notes because their personal stories of where 
brownfields are helping revive the economic blight that all 
cities have within certain areas, especially those areas that 
were developed in the 1910s, 1920's, 1930's, 1940's, even up 
through the 1990's where we have brownfield remnants at this 
point in time.
    In fact, most people assume a city like Charlotte, which 
now has 550,000 people within its city limits, they see it as 
glowing towers and bank buildings and so forth, but we also 
have our brownfields--many, many brownfield sites, old cotton 
mills, old steel mills, old dry cleaning, gas stations 
throughout the city that need cleanup, so it is in cities like 
was mentioned New York and Sun Belt cities like Charlotte, 
North Carolina.
    Every mayor has a passion about brownfields because it is a 
method of recycling land. You know, during the past two decades 
mayors talked about recycling paper to save their waste in 
dumps and so forth. Now it is recycling land, and that is the 
best environmental policy that one can have is to recycle land 
that was previously used during the past 100 years as our 
cities and our Nation grew economically and industrially.
    Another thing that brownfields does--and I'm talking to the 
choir, hopefully--but it does create jobs. You mentioned 
thousands of jobs that can be created in these examples, and 
I'm going to give you some specifics of jobs being created in 
Charlotte, North Carolina.
    Let me also mention something that I think relates to your 
committee and some of the other work that you're talking about, 
and that is many of our cities are dealing with sprawl--sprawl 
going out to greenfields, where your committee has to decide 
where to put new roads and highways and transit lines.
    If we can clean up the brownfield which is along many of 
the existing transit lines that we are now putting mass transit 
into, we are going to save money by not having to build new 
infrastructure 20, 30, 40, 50 miles outside of our city limits, 
which is much, much more costly, and I think that will save 
your committee and the Federal Government much money in the 
long run.
    And the last thing I want to talk about, it builds a tax 
base that is currently not there to pay for our schools, to pay 
for our police, to pay for our fire, because most of the area 
where brownfields currently exist is blighted property, which 
is not contributing to our economy whatsoever, and now we are 
rebuilding that land that has been just sitting there vacant, 
and often those are areas where we have high crime, poor 
housing, and it has just become a wasteland in our inner 
cities, both in the rust belt and in the sun belt areas of our 
country.
    So to me it is a win/win situation for the Federal, State, 
and local governments for every city, regardless of the size of 
city. I want to emphasize, this is not just for cities of a 
half a million or two or three million; we also have many 
cities with 20,000 or 30,000 people that have brownfields and 
they need help in cleaning up and revitalizing their center 
town areas, and even their suburbs of small towns.
    Let me just give you a few examples of what we are doing in 
Charlotte, North Carolina, and we are very, very proud of that. 
One example you might see every Sunday when you watch an NFL 
football and the Carolina Panthers are on TV. When the Carolina 
Panthers--whether it be New Orleans Saints or Dallas Cowboys 
come to Charlotte--and the new Houston team will be coming to 
Charlotte shortly--they are playing football on the site of a 
brownfield in downtown Charlotte, North Carolina, right now 
where a 72,000-seat football stadium resides and two practice 
fields reside.
    It is a fascinating story where the city purchased over 
13.4 acres to build a football stadium and practice field 
facilities. We spent several million dollars--$3 million to 
clean up that site. By the way, we reserved three acres of that 
total site to actually put some of the contaminants that we 
cleaned up, and those contaminants were still within protected 
cells on a protected site. Most people think it is a park, but 
it is very nicely fenced off and it looks like a greenfield in 
our city, center city, but that is actually where we have some 
of the cells buried right near our football stadium, and no one 
knows it even exists, and we have wonderful housing in and 
around that area because that area is now contained and it is 
beautiful. It has just been a wonderful example of using 
brownfields site for in-fill development.
    By the way, with your committee talking about future 
infrastructure and roads, ten years ago that 72,000-seat 
football stadium would have been built 20 or 30 miles outside 
our center city, where we would have been coming to ask you for 
road money and transit money to pay for that much-needed 
infrastructure. We didn't need that money because the football 
stadium is in downtown Charlotte, where the roads and the 
infrastructure and the transit are already in place, so we 
consider that to be a wonderful story.
    Briefly, some other examples--and I want to give you time 
to ask the experts and this mayor questions--we have an area 
called the ``south end,'' which is one mile outside of our 
center city. This was a 1920's industrial site. It was the 
first industrial park in Charlotte, North Carolina. It probably 
wasn't far from where you watched the baseball games in 
Charlotte.
    This was an area of blight just ten years ago because we 
had vacant buildings of old cotton mills and steel mills. We 
have revitalized that property, cleaned up that property, and 
now it is the place to live and work. We are selling $300,000 
condominiums on what was once a blighted site just seven years 
ago, and now this is where the architects in our city house 
their companies, and it is also right along our north transit 
line and our south transit line, where we are building a major 
mass transit station and we're having further in-fill 
development.
    It all complements each other, brownfields along with 
existing infrastructure, which you are working on.
    We are right now also--in 2001, with the help of a $500,000 
EPA loan and a $100,000 loan and assessment grants, and we are 
using these funds at 2 percent interest to clean up approved 
sites and repayment is due following construction projects. 
Right now we are working on a shopping center on our west side 
in an old industrial area, a shopping center which was taken 
over due to the person who used to own the shopping center was 
involved in drug sales. The Federal Government took over the 
shopping center. We are now revitalizing that shopping center 
with the help of some of these loans because some of the 
shopping center was contaminated due to an old dry cleaning 
firm there, and we're cleaning up that site and we are putting 
a police station on that site, in addition to a grocery store, 
where we've never had a grocery store on that side of the city. 
So things are going extremely well.
    In the city of Charlotte we take brownfields so seriously, 
and in our State, also, that we just put $60,000 in our budget 
just two months ago to hire a permanent State employee in 
Charlotte, North Carolina. One of our dilemmas we are having at 
the State level, they have wonderful laws, but they don't have 
the resources to support that law.
    Mr. Chairman, we welcome the opportunity to give you any 
more specifics.
    Mr. Duncan. Well, thank you very much, Mayor McCrory, for 
an outstanding statement and very helpful testimony.
    Just out of curiosity, where you have built the football 
stadium, you said you had the three acres there fenced off and 
people just thought it was a greenfield. Is there a reason that 
you didn't put a park there for children to play or something? 
Are you concerned that those cells weren't buried deep enough 
or that there was still some potential danger there, or--why do 
you have it fenced off?
    Mayor McCrory. On this piece of property we still don't 
have the flexibility regarding the contamination to make it a 
specific part. I will say we just sold a piece of property 
right next door to it for $28 per square foot where we are 
building major in-house condominiums, so the property and 
around it is very safe, but we felt contain that area. And it 
is a beautiful iron fence around it, by the way. It is very 
well landscaped.
    Mr. Duncan. Yes. Well, it sounds like a great success 
story.
    Most of these estimates are that half of these brownfield 
sites roughly are old abandoned gas stations. Mr. Williams, is 
that true of Chattanooga or some of your other areas, and do 
those gas stations pose the same problems or threats as some of 
these other sites? Are they harder or easier to clean up?
    Mr. Williams. Particularly in our redevelopment area we 
have a host of those types of sites, sir, and that is very 
insightful that you see that.
    One of the problems that we recognize is that under the 
existing Superfund liability, and particularly with 
brownfields, it excluded using those funds on the brownfields 
to look at those particular sites, so that exclusion, 
limitation acts as a barrier for redevelopment of such sites. 
So if proposed legislation could look to pull back that 
exclusion, I could see those sites becoming revitalized that 
much easier.
    Mr. Duncan. Right. That is a key suggestion and something 
that we should fix in any legislation that we do this year, and 
we are already talking about some.
    I know a couple of people mentioned this. Is the main 
problem that you face, the uncertainty about liability and 
problems about selling property to potential developers, Mr. 
Abolt?
    Mr. Abolt. Liability is a significant problem for us, but 
it is starting to go away. I think our biggest liability 
problem now does relate directly to municipalities stepping 
into the chain of title, because we'd found that one of the 
ways that we address liability is by, for some moment in time, 
taking ownership of the parcels, so we do believe liability is 
still a problem. It needs to get addressed. We think that 
specifically addressing it in the context of municipalities, as 
the U.S. Conference of Mayors has worked hard on, would go a 
long way, but liability reform beyond that will likely be 
needed.
    Mr. Duncan. Mr. Brown, I've seen you nod your head a couple 
of times. What do you have to say?
    Mr. Brown. Well, I might mention, in regard to the smaller 
sites such as dry cleaner sites and gas station sites, what the 
State of Kansas has done that has been very successful is 
establish State trust funds to address the investigation and 
the cleanup of those sites, so they no longer are really an 
issue in our community because of this State funding source. 
Basically, the State hires consultants using the money that is 
created from a small tax on gasoline to address these sites and 
remediate them if necessary.
    In terms of the dry cleaning trust fund, it is another tax 
on the customers who use those services. It goes into a State 
fund and is administered by the State to again remediate those 
sites that have caused contamination from dry cleaning 
solvents.
    Mr. Duncan. I've just finished six years as chairman of the 
House Aviation Subcommittee, and we found there that, because 
of the environmental rules and regulations and red tape and so 
forth, it would take ten or fifteen years to build a runway 
that we really could build in a couple of years.
    I know a couple of you mentioned the possible need to 
streamline environmental regulations in regard to brownfield 
sites. Do you see those same problems there? And are there ways 
that you know of that we could streamline these regulations so 
we could speed up the cleanup of some of these sites? Mayor 
McCrory, have you run into problems like that?
    Mayor McCrory. Absolutely. We have that at our airport 
often. In fact, we are in the planning stage of a third 
parallel runway right now. But as it relates to brownfields, I 
think some of the other speakers mentioned that we need more 
flexibility and more long-term commitment. Some of these 
temporary pilot programs need to be committed, too, in the long 
term, and that would help out a great deal.
    The developers who are interested in investing in 
brownfields want to make sure that two years after their 
initial investment is put forward that something doesn't 
change.
    Mr. Duncan. Right.
    Mayor McCrory. And the bureaucrats stop it from occurring, 
so there is a hesitation of developers to put the up-front 
money in for fear that the bureaucracy will change a rule on 
them or change the parameters regarding the brownfield cleanup.
    We want to also encourage people to actually clean it up. 
There's actually a hesitancy for some people to even dig 
because they are afraid they won't be able to move. So there 
are a lot of people not even identifying brownfield sites right 
now out of fear.
    Mr. Duncan. Mr. Pawenski, what do you have to say about 
that?
    Mr. Pawenski. I would like to definitely agree with The 
Honorable McCrory. Streamlining them would help, I think. Most 
helpful for us right now in the areas is making them consistent 
throughout the country so companies know what to look into.
    We need encouragement for the principal responsible parties 
to want to be proactive in cleaning up the mess that they've 
created, even though laws might differ that they were created 
under.
    As you mentioned previously, the liability would be very 
helpful. That's the light at the end of the tunnel that 
encourages them to get going.
    Mr. Duncan. Mr. Hoover, what are you doing in Massachusetts 
to speed things up?
    Mr. Hoover. Well, we are working very closely with the 
Commonwealth right now, and where they step in I think it is 
very important, Mr. Chairman, that the Federal Government 
doesn't get in the way, in some respects. I think when the 
States do take some initiative and really want to step forward, 
let's not then, after the problem seemingly has been solved, 
come back and bring the heavy hand of the Federal Government 
down when that proactivity has occurred. I think that 
cooperation is very necessary, and it continues to encourage 
the States to do more, and support is really the word of the 
day, I think, in that regard.
    Mr. Duncan. All right. Thank you very much.
    Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman. It is always helpful 
to hear from folks who are actually doing the work in local 
communities. As a former county commissioner, I appreciate that 
and appreciate what you are doing as we look for ways to 
improve Federal brownfields legislation.
    With that, I'd defer my time to Mr. McGovern, who has some 
particular questions.
    Mr. McGovern. Thank you. I want to thank the ranking 
member, and I want to thank the chairman for holding this 
hearing.
    I represent a District in Massachusetts that was home to 
wire companies and textile companies and tool companies, and a 
lot of them gone, and they've left behind abandoned buildings 
and contaminated brownfields, and whether it is Worcester, 
which my city manager, Tom Hoover, represents, or Fall River, 
we have a real serious problem. There are issues of liability. 
There are issues of dealing with the bureaucracy. There are 
also--you know, the bottom-line issue is money, too.
    I think what I am hearing from everybody today is that, in 
addition to wanting all of us in Congress to feel your pain, 
you want us to show you the money, too, so you can actually do 
the job. I mean, identifying brownfield sites is part of the 
challenge. Getting people who own the sites to allow there to 
be testing is another part of the challenge. But, depending on 
what was there in the past, some of this is very, very costly, 
and even with State help communities can't do it.
    We tried last year in this committee to get a Superfund 
bill with a brownfields component to it, and we actually, I 
thought, came up with a pretty good compromise when all was 
said and done. It wasn't perfect, but it was good. It didn't go 
to the full House for consideration, and hopefully this year at 
a minimum we might be able to get a brownfields bill.
    I've seen first-hand in my communities that communities 
that have been knocked down stay down. I know what the city of 
Worcester is going through trying to get involved with these 
competitive grants and you are competing with a zillion 
different communities and filling out thousands of pages of 
paperwork, and at the end more times than not you're told, 
``Well, we don't have the money and you weren't picked, but if 
we had the money you would be picked.''
    Again, as a city manager, Worcester is the second-largest 
city in New England, and yet we are at a great disadvantage 
because we can't get companies and businesses to invest in our 
community, not because the land isn't available, but because we 
don't know whether the land is contaminated or not. It is a 
real challenge.
    We are living in a time of incredible surpluses. I hope a 
significant portion of those surpluses go to kind of supporting 
these efforts, because I think in the long run it is a win/win. 
Getting these businesses into these communities, revitalizing 
urban areas--the mayor talked about urban sprawl. The way you 
deal with that is to revitalize our cities, and one of the ways 
you deal with that is you help them deal with brownfields and 
make more land available for companies to move in.
    I have a question. I want to thank the Chair for also 
letting my city manager from Worcester testify here today, 
because I do think that Worcester is a community that has 
been--I don't want to say ``uniquely impacted,'' but certain 
significantly impacted by brownfields.
    I do have a question for my manager, and anyone else who 
wants to chime in on this. Your testimony represents the public 
sector's commitment to resources, and you talk about some of 
the Federal monies and State monies that the city has received. 
Could you give us some specific examples of the resources that 
you need right now and how these resources would be used?
    Mr. Hoover. Well, Congressman, I think that the answer 
would have to be two-fold on that, and it relates to our 
immediate short-term goals as well as our larger question of 
the long-term.
    First, we currently do have a $1 million application 
pending with the EPA to establish the brownfields revolving 
loan fund, and with this in place we could have a tool right at 
the local level that could leverage new private investment by 
allowing us to implement our brownfields redevelopment 
strategy.
    But in the longer term we would love to look at programs 
that would handle the one project I described where it would 
take $12 million in our South Worcester Industrial Park just to 
remediate that particular problem down there so we could 
redevelop the 30-some acres we have.
    It would be great if we could get a $12 million pilot 
demonstration project on a site like that that we could do 
something innovative with. For instance, right now we put 
$100,000 for assessment activities out of the city coffers into 
that industrial park to do some initial assessment, but if we 
could maybe set up a loan fund that would be like equity 
financing so that once you improve the properties and you do 
get equity in your properties you could actually not have a 
grant but a loan that you could pay back by the improved cost 
of the properties in the future.
    We'll never see that without the assistance. The $12 
million is something that a city the size of Worcester just 
doesn't have laying around to do. It's a lot of money for any 
city, but with pilot projects, with some innovations, and 
assuming something like this works, it could be spread 
throughout the entire country, and I think that's important to 
look at those innovative ways of solving things like this.
    Mr. McGovern. Does anyone have a similar kind of pilot 
project like that going on?
    Mr. Abolt. We've dealt with a number of sites similar to 
what was mentioned here. We see three specific things that 
Federal Government can do in terms of resources that would be 
helpful.
    First is more assessment dollars. That's a relatively 
limited investment, but it is absolutely critical to 
prioritizing sites and deciding which ones you can actually 
afford to clean up.
    The second is the concept of loans that was raised. The 
vast majority of our brownfields program is funded off of HUD 
section 108 loans directly connected to the City's 
establishment of tax increment financing districts. We found it 
to be remarkably successful and the program should be 
standardized and accepted, because then the Federal Government 
is fronting the money, but the local government is on the line 
for making sure the development happens.
    Then, finally, we do believe that, whether it is at the 
State level and/or the Federal level, there is going to be need 
for just some direct limited grant dollars to do some of the 
cleanups on those properties where--probably a lot of the 
properties you're talking about--the property value or the 
property development does not exceed the value of the cleanup, 
so the transaction is upside-down. The only way to address an 
upside-down transaction is that the Federal Government is going 
to have to put some money into it, perhaps a matching grant 
type program.
    Mr. McGovern. Thank you.
    Mr. Duncan. Thank you very much, Mr. McGovern.
    Ms. Millender-McDonald?
    Ms. Millender-McDonald. Thank you, Mr. Chairman and the 
ranking member for bringing this very important urban issue to 
this committee through a hearing.
    I really do appreciate all of you, because you are on the 
front line. I was once there, as a mayor of a city--and a city 
that is absolutely impacted with brownfields.
    While we grapple with trying to redevelop on this 
brownfield, which was once in many cases junk yards in a lot of 
my areas of Watts and Carson, there are so much toxic types of 
the surface and all of the contaminated soil that we have a 
difficult time in trying to clean this up so that we can 
redevelop.
    A lot of times redevelopers don't want to come in because 
of the headaches and the problems, and so I am happy to hear 
the chairman talk about streamlining regulations, because 
perhaps we will have to do that, Mr. Chairman, in order to try 
to move some of the wasted parcels of land for redevelopment.
    But I heard from--I think it was the city of Worcester that 
if the Feds would kind of stay out of the way you can get some 
things done, and we often know that our heavy hands sometimes 
can be an impediment. But what I've heard from others who talk 
about the consistency and uniformity of the law, you're talking 
about the Federal laws or the State laws or the ordinances in 
the city, or what is it that you are pretty much talking about 
in terms of your consistency or being consistent with the law 
and uniformity throughout the Nation? Naturally, throughout the 
Nation it will have to come from the Feds, and yet you want the 
Feds to stay out, so comments on that.
    Mr. Hoover. Well, let me address, if I might, Madam 
Congressman, the issue in Worcester. What I was referring to--I 
certainly don't want to keep the Feds out as far as 
participating in the price of these cleanups, but many times 
the State will move in and the State's eliminating of the 
liability will not necessarily limit the CERCLA liability, and 
therefore people do not want to take the full step because, 
although they are exempted under the State's heavy hand, so to 
speak, they are not under the Federal Government.
    So the laws--anything the States do, first of all I think 
they need try to parallel as closely as possible that of the 
Federal Government, and, in turn, the Federal Government has to 
not be too enforceable or coming down with a heavy hand, 
crossing every ``T'' dotting every ``I'' when you have that 
sound initiative being taken by the States and the local 
governments.
    So cooperation is the name of the game there, and certainly 
we appreciate and need--very much need--all the financial 
resources, but we should all work together on the rules and the 
regulations.
    Ms. Millender-McDonald. I guess one more question I have 
for the gentleman--I think it is Mr. Williams who has 
brownfield programs or is brownfield program manager. What are 
some of the programs that you spoke about? And I'm sorry if you 
spoke about those while I was in another hearing.
    Mr. Williams. We are fortunate to have quite a few number 
of initiatives going on in our targeted area at this time. New 
investments into city-sponsored recreation facility is going to 
be a combined use facility where you have a police precinct in 
the same building as a recreational facility. We are also 
talking about the acquisition of a 23-acre site where we could 
take a mixed-use type of use of that particular site of 
commercial and residential. We also have partnerships forming, 
like organizations such as our local Boys' Club that want to 
build a $2 million facilities on a brownfield sites.
    So yes, we have quite a few number of programs and projects 
that are targeted for brownfield locations in our targeted 
area, all to augment the revitalization of the community to 
bolster what we are having in terms of the large influx of 
capital through the Hope Six redesign of the primary housing 
site, not only for this community but for the city, as a whole.
    So we are just trying our best to take these projects, 
engage the community in those projects, build value back into 
this community that has in the past been a primary, prominent 
part of our community in terms of tax base, in terms of 
population base, and attract people back into that community.
    Ms. Millender-McDonald. Thank you, Mr. Chairman.
    Mr. Duncan. Thank you.
    Mr. Pawenski, I think you wanted to add something?
    Mr. Pawenski. Thank you, Mr. Chairman.
    Regarding the consistency, I guess I was talking about 
that. What I want to say about consistency in the law is that a 
lot of the cleanup efforts, a lot of the things that happen are 
headed up by State, but every State agency works with different 
regions, especially EPA regions, and they design a lot of their 
cleanup programs with support of those regions. Where I'm 
starting to find it there isn't consistency is that each region 
doesn't give the same message to each Sate.
    In our project, in particular, the Bethlehem Steel site, 
they have been very successful in the State of Pennsylvania, 
drawing over $100 million in investment in their former steel 
site, but they knew there they weren't going to be held under--
that property could be removed from interim status and entered 
into the State cleanup program.
    In New York they knew they wouldn't be allowed into the 
voluntary cleanup program because the State was being 
discouraged there by the EPA to allow it to happen so they let 
it languish longer.
    That's the consistency, I guess, we're looking for--the 
same message by the same agency to be put across the country.
    Mr. Duncan. Mayor McCrory, I know you had a comment, but 
besides the money, and realizing that oftentimes we can't do 
everything we want to do, what would you think is the one thing 
that would be the most helpful other than money, to Charlotte 
in an effort to clean up these brownfields?
    Mayor McCrory. I think clarification of the liability 
aspects. I think that is the one thing that is going to hold 
people back is the liability and to make sure that the 
innocent--the last party is not the one who is stuck with 
everything, because that's just going to discourage investment.
    So I think the liability issue is the biggest issue that 
can hinder future investment.
    I might add, also, at the State level many States, 
including my State--and maybe this is something that Feds can 
review, and that is the flexibility in using property based 
upon the degree of cleanup. Some States have much less 
flexibility, some States have more flexibility on the degree of 
cleanup and how you can then re-use that property, and that is 
what has helped us a great deal in our States.
    Where the Federal Government I think can assist is more 
dealing with the liability issue.
    Ms. Millender-McDonald. Mr. Chairman, let me just comment 
on what the gentleman has just said, because that is absolutely 
the truth.
    When you try to find those who have gone from the scene of 
this contamination and you can't find them, the person who now 
wants to develop on that, or maybe one person who was left that 
we did find, you want to, I guess, engage that person in the 
liability aspects, and you really cannot because it is so 
extremely costly.
    Anything that we can do to kind of minimize the liability 
in trying to redevelop these lands would just be absolutely 
important and critical.
    The other thing is the flexibility of use. I was hearing 
Mr. Williams talk about the various things that you are doing. 
In my city and some of the other cities we aren't able to 
utilize that land for some of the things that you outlined, so 
there is an inconsistency when it comes to the utilization and 
the flexibility of land, and so it is important that you have 
some type of uniformity where folks aren't moving over each 
other and regional is doing something differently than what the 
city or the State is doing.
    Mr. Chairman, I would like to submit my statement for the 
record, as well.
    Mr. McGovern. Would the gentlelady yield just for one 
second?
    Ms. Millender-McDonald. Yes.
    Mr. McGovern. I just want to clarify one thing here. When 
we're talking about these issues of liability, nobody here is 
advocating that we let polluters off the hook who are 
responsible for some of the contamination. I just wanted to 
make that clear. Are we all in agreement on that?
    Ms. Millender-McDonald. By all means. I'm not saying that. 
No.
    Mr. Duncan. All right.
    Mr. Brown?
    Mr. Brown. I have one more comment on liability. I think, 
under the current structure, even at EPA at the Federal level, 
letters of comfort, whatever you want to call the instrument, 
there still is the opportunity for third-party lawsuits, even 
if some kind of protection has been granted, so I have to 
second what everyone else has said. Just simply this liability 
issue needs to be clarified, and at the end of the process 
there has to be some way that we have--and I don't have a 
solution for this--that no further action on a piece of 
property be taken. It is done. It is over. The liability issues 
have been addressed. And we certainly want the polluter to pay, 
but the liability issue for those innocent property owners or 
those people settling, maybe in a Superfund site or some other 
situation, needs to be resolved.
    Mr. Duncan. All right. Thank you very much.
    Mr. Kerns, do you have any comments or questions?
    Mr. Kerns. Thank you, Mr. Chairman. It is a pleasure to be 
with you, and I apologize for being late.
    Mr. Duncan. That's all right.
    Mr. Kerns. Having worked with the Indiana Department of 
Natural Resources, it was my experience that State agencies and 
employees tried to work with individuals and companies in a 
partnership arrangement to solve difficult problems, and I have 
long advocated that the Federal Government play more of an 
educational, advisory, and partnership role in helping resolve 
some of these difficult issues rather than what some of you 
describe as predatory, with fines and increased litigation.
    Could you share your thoughts on the role of the Federal 
Government and its partnership to help resolve difficult 
situations around the country?
    Mr. Abolt. Thank you, Mr. Chairman. I think your point on 
States is particularly well taken. I think underlying a lot of 
the comments that have been made here is that you cannot have a 
successful Federal/city relationship or a successful 
brownfields program dealing with certainty unless you have a 
solid, functioning State voluntary cleanup program. Any 
legislation that you would consider should make sure that you 
have, in fact, fostered the creation of those programs and 
provided the kind of finality, liability protection, and even, 
to the extent there is funding, created triggers for that 
funding on functioning State voluntary cleanup programs that 
work in conjunction with Federal goals and local goals.
    Thank you.
    Mr. Kerns. That's all. Thank you, Mr. Chairman.
    Mr. Duncan. Well, thank you, Mr. Kerns.
    Let me just say, you know, I am a conservative but I 
believe in an activist government. I believe in actually trying 
to solve problems, and I believe that's what you all are doing. 
For me what that means on some of these things is I am all for 
the Federal Government providing some of the money, because 
this is a national problem. The brownfields affect people 
economically, socially, and in every other way almost, but also 
being a conservative I'm horrified by Government waste or rip-
offs of the taxpayer, and so I believe that we can get the most 
bang for the buck, our dollar will go the longest way if we let 
the local governments handle most of these problems without a 
lot of Federal involvement or red tape or rules and 
regulations.
    I might tell you, Mayor McCrory, my father was city law 
director of Knoxville for three-and-a-half years, and then was 
Mayor for six years.
    Mayor McCrory. He's got a wonderful reputation.
    Mr. Duncan. That was from the time I was nine until I was 
eighteen, so I grew up at City Hall. In fact, he was the first 
mayor in the history of Knoxville to be re-elected. It was 
always a tough place politically.
    I really believe that the cities need to leave these 
problems up to the local governments.
    But what I hope people will keep in mind, when we put 
Federal rules or regulations or especially some of these 
environmental laws and we make it take five times as long, five 
years to clean up something that should take a year, or we add 
all these costs on, that who it hurts--you know, I've noticed 
that most of these environmental extremists always come from 
wealthy families, and what I don't think they realize is that 
when they make something cost $10 million that we should have 
been able to do for $1 million, that those costs have to be 
passed on to the consumer in the form of higher prices--higher 
rent for apartments, higher everything. And it doesn't hurt the 
wealthy or even the upper income, it hurts the poor and the 
lower income people most of all.
    So I hope that we can help you streamline some of these 
things and speed up some of these things and give you a little 
money in the process to do that, but I hope also that if, when 
you're out there in the field and confronting these problems, 
if you see a specific ways that we can improve this process, 
that you won't just let this drop now that this hearing is 
ending but that you will let us know of specific ideas or 
suggestions that you have about ways that we need to change the 
laws that are in effect today.
    You have been a very helpful and informative panel, and I 
appreciate the fact that each of you have taken time out from, 
like I said, very busy schedules to be here, and I salute you 
for what you are doing.
    That will conclude this hearing.
    [Whereupon, at 11:07 a.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]

  Statement of William F. Abolt, Commissioner of Environment, City of 
                                Chicago

    Good morning Chairman Duncan, Ranking Democratic Member 
DeFazio and Members of the subcommittee. My name is William F. 
Abolt and I am the Commissioner of the Chicago Department of 
Environment. I appreciate the opportunity to appear before you 
today to present the views and experiences of Mayor Richard M. 
Daley and the City of Chicago regarding brownfields 
redevelopment.
    The City of Chicago has developed what is widely regarded 
as one of the most comprehensive and most successful 
brownfields redevelopment programs in the nation. Chicago's 
program was born of necessity. The continued existence of 
abandoned industrial properties would have presented potential 
hazards to our neighborhoods and inhibited job growth and 
economic development. In the mid 1990s, Mayor Daley had the 
foresight to recognize how the concept of recycling could be 
applied to land. With that recognition, the City began 
developing its brownfields program. To date, we have completed 
the cleanup of nearly 20 sites, and we have close to 70 
additional sites currently underway.
    Partnerships have played a key role in building Chicago's 
program. Our program would not be the success that is it 
without the valuable assistance and support we have received 
over the years from Congress, the U.S. Environmental Protection 
Agency--especially Region 5, the U.S. Department of Housing and 
Urban Development, the U.S. Conference of Mayors, and the 
Illinois Environmental Protection Agency.
    We have applied the concepts of recycling land and relying 
on partnerships, in the belief that cities are important and 
useful environmental models, contributing to the well-being and 
economic strength of the country. Now as the City of Chicago 
moves forward with our brownfields initiative, we are expanding 
on our success by taking our program one step further. In 
addition to cleaning up property and communities and promoting 
redevelopment, we are now using our brownfields program as an 
opportunity to promote a new ``green'' business sector in 
Chicago. Shortly, I will give some examples of how we are 
accomplishing this, but first I will give a brief history and 
scope of our program.


             chicago's brownfields redevelopment initiative


    Chicago began its Brownfields Redevelopment Initiative in 
1993 with the goals of ensuring public health and safety while 
creating jobs and generating tax revenues through industrial 
and commercial redevelopment. With a grant from the John D. and 
Catherine T. MacArthur Foundation and $2 million in general 
obligation bonds, Chicago set out to identify the barriers and 
opportunities of brownfields cleanup through both collaboration 
and practical experience. Our experiences on both fronts formed 
the basis of our continuing efforts and became models for other 
cities.
    Chicago's program attracted the resources to continue 
acquiring and assembling property, assess environmental 
conditions, clean up contamination, and improve infrastructure 
in order to restore abandoned or derelict sites to productive 
uses. Through the City's efforts, sites that just a few years 
ago were environmental liabilities are now neighborhood assets, 
bringing well-paying industrial jobs, valuable community open 
spaces, and affordable housing.
    As you may know, bringing a brownfields redevelopment 
project to completion takes time. To date, we have completed 
the clean-up of nearly 20 sites. We are currently executing the 
assessment and clean-up of nearly 70 additional sites, which 
total nearly 1000 acres. Our most recent estimates indicate our 
clean-up and redevelopment efforts have created or retained 
more than 2200 jobs and increased the City's annual tax base by 
millions of dollars.
    Building on these successes, we now are focused on 
promoting the sustainable use of redeveloped brownfield sites, 
looking at ways to prevent future brownfields while promoting 
``green'' industry in Chicago, and improving quality of life in 
a way that positions Chicago to compete in a global and high-
tech economy. Three recent examples of this follow.


                            success stories


1. Midwest Center for Green Technology
    This summer the City will open the Midwest Center for Green 
Technology on a former brownfield on Chicago's west side. This 
state-of-the-art model of environmentally-friendly green 
construction will house Spire Solar Chicago, a Boston-based 
manufacturer of solar technology which the Department of 
Environment recruited to Chicago with assistance from the US 
Department of Energy, and Greencorps Chicago, the City's own 
community greening and job skills program. Spire Solar Chicago 
will create 100 new jobs; Greencorps Chicago provides skills 
training to 25 people each year.
    Before the City assumed control of this 17 acre site in 
1998, it was an illegal rock crushing operation that generated 
on its site piles of material, some contaminated, that would 
fill roughly 50,000 dump trucks. An abandoned building occupied 
the only portion of this West Side site that was not covered by 
waste. We separated the debris and recycled the concrete and 
asphalt for use in City infrastructure projects at an estimated 
cost savings of more than $1 million over buying the material.
    Rather than demolish the building, the City decided to rehabilitate 
it for tenants in a manner that meets the goals of improving quality of 
life and the environment in Chicago. With the local chapter of the 
American Institute of Architects and with the US Green Building 
Council's ``platinum'' LEED (Leadership in Energy and Environmental 
Design) rating as a goal, we set out to build a showcase of ``green'' 
reuse.
    The building contains features like solar panels, a rooftop garden, 
and locally manufactured finishing products. The site includes a 
stormwater retention area using native wetlands plants. In addition to 
the two tenants I mentioned, the building will be a community center 
where people can design their own landscapes and get expert advise 
about energy efficiency.
    In short, the site is no longer an eyesore and a drain on the 
community's development potential. Instead it generates greenjobs and 
green products, provides a community meeting place, and demonstrates 
cutting-edge construction and site design.
2. The Calumet region
    The Calumet region, a 20 square mile area on Chicago's southeast 
side, is ground-zero for one of Chicago's historically most important 
industries and is also home to the largest concentration of wetlands in 
the midwest. Mayor Daley, Governor Ryan, other elected officials and 
the residents of the Calumet region all recognize the region's 
potential to demonstrate that economic revitalization and ecological 
rehabilitation should not only simply coexist, but should be mutually 
supportive.
    Based on this recognition, in June 2000, the City of Chicago and 
the State of Illinois together pledged nearly $40 million towards 
reclaiming this region and interweaving its industrial and 
environmental assets. To date, the federal government has committed 
about $6 million, and private sources are beginning to follow suit. 
Mayor Daley and Governor Ryan announced several large scale, 
interconnected projects that I'll summarize for you as an example of 
utilizing and leveraging a wide range of public tools and private 
investment. Brownfields tools are at the heart of the plans.
    Sustainable growth is the goal of the Calumet region redevelopment, 
and the objective of economic development is as important as the 
quality of life issues such as recreation, open space and natural 
areas. The City has designated a tax increment finance district in this 
region to direct development and attract investment to 3,000 acres of 
industrial land. Another 3,000 acres have been identified as part of a 
new Calumet Open Space Reserve--ecologically important sites in the 
City that extend into the south suburbs. With some assistance from U.S. 
Army Corps of Engineers, the City is moving to clean up these now 
vacant properties and restore their hydrologic and habitat connections 
to improve the environmental health of the region.
    Also in the Calumet region, the City is now testing a large 
brownfield property in preparation for constructing what will be the 
largest solar power plant in the country. The U.S. EPA and the Illinois 
EPA are assisting us. A landfill adjacent to the site, which the state 
recently helped stabilize, will also contribute to local power supply 
by converting landfill gas into energy. On the other side of the 
landfill, a rookery for the Black-crowned night heron, a state 
endangered species, will be one of several model sites of ecological 
rehabilitation.
    Another site in the region will be selected to serve as a new 
environmental center, complete with walking trails, a conference and 
learning center and museum quality exhibits. Ford Motor Company 
recently contributed $6 million toward the construction and programming 
of the center which, along with the Midwest Center for Green Technology 
and the existing North Park Village Nature Center, will form a ring of 
nature centers on the City's north, west and south sides.
    One of Chicago's early planners is famous for having advised, 
``make no little plans.'' In addition to honoring Daniel Burnham's 
advice, projects like this illustrate many of the lessons we've learned 
from our brownfields work--that government involvement is a key 
catalyst; that private funders and expertise can be drawn to high-
profile and well planned projects; that a careful and expansive 
approach to identifying challenges yields a clearer vision of the 
opportunities. Finally, we borrow a lesson from ecology--that 
interconnectedness is an asset and if we're smart we can knit projects 
together to support a range of economic, environmental and quality of 
life goals for the long term.
3. Abandoned Service Station Program
    With his 1998 budget, Mayor Daley devoted City resources 
specifically to the problem of abandoned service stations of which 
there are more than 500 in Chicago. In addition to possible 
contamination and other hazards of abandoned structures, we view 
abandoned service stations as ``neighborhood brownfields''--a visual 
blight on the community, a lost commercial opportunity and a magnet for 
vandals and crime.
    The City of Chicago has attacked the abandoned service station 
problem systematically, acting immediately to correct site hazards and 
secure lots, identifying responsible parties and compelling them to 
take action or pay, and finally by using new legislation to both 
prevent and facilitate enforcement of non-compliant sites. To date, 
more than 100 sites have been cleaned up.
    Similar to the other examples mentioned here, the City of Chicago 
has sought to go beyond simply correcting the environmental problem of 
abandoned service stations to the point of creating an environmental 
solution. An example is the transformation of several abandoned service 
stations into ``pocket'' parks. Working with the community, with BP 
Amoco, who previously operated the stations, and with other City 
programs that provide landscaping assistance and horticultural 
training, we have installed new community green spaces on these 
``neighborhood brownfields.''
                            lessons learned
    By redeveloping these site and many others throughout Chicago, the 
Mayor's brownfield team has learned many valuable lessons. In addition 
to using our brownfields program to achieve cleanup and redevelopment 
of property, we've learned how to use our program in a manner that 
promotes smart growth and sustainability.
    Encouraging smart growth and sustainability as an inherent part of 
brownfields redevelopment programs is an important objective to keep in 
mind as Congress moves forward with a brownfields bill and cities move 
forward with their own brownfields redevelopment efforts. Pursuing 
these goals simultaneously is an effective and efficient use of 
resources.
    In addition, there are several other recommendations I'd like to 
make based on lessons learned by the City of Chicago.
Assessment grants
    Chicago has found great value in financial assistance from the 
Federal government for site assessments and investigations. We have 
benefited from an Assessment Pilot and Showcase Community designation 
by U.S. EPA and we have received $250,000 to investigate brownfield 
sites as a result. We believe continued and expanded assistance for 
assessments is necessary; we also believe these grants can be more 
effective by making a simple change in how data quality is assured.
    Assessment grants from U.S. EPA currently require grantees to 
develop a Quality Assurance Plan (QAP). A grantee may spend a 
significant portion of the grant preparing the QAP. However, the 
requirement could be waived for sites that are being investigated and 
cleaned up under a state voluntary cleanup program which has its own 
data quality standards. The effect would be to make more funding 
available for actual sampling work, without compromising data quality.
Financing cleanup
    The biggest obstacle to the widespread redevelopment of industrial 
sites is difficulty financing cleanup once assessments have identified 
contamination. A quick and hard lesson every local official working on 
this problem learns is that cleanup is almost always expensive and 
sufficient resources to address all your brownfields almost never 
exists. Chicago has been aggressive about financing cleanup, investing 
well over $100 million in general funds, special appropriations, and 
loans from the Department of Housing and Urban Development.
    Still, if we could clean up more sites we would quickly find uses 
for them. Financial assistance to local governments for cleanup becomes 
even more important as the number of cleanups increases. That is 
because in many cases, the cost of a cleanup exceeds the value of the 
property even if clean. The percentage of these sites will increase as 
the more valuable properties get cleaned up and redeveloped. It falls 
to government to bridge the gap between the cost of cleanup and the 
amount that can be recovered upon redevelopment.
    Another valuable tool that would be useful to cities in financing 
brownfield projects would be new federal tax benefits designed to 
attract private investment in such projects. In several of Chicago's 
projects, we have been able to successfully leverage government funds 
with private funds. Developing tax programs to further encourage 
private investment would certainly enhance the promise of success.
Petroleum contamination
    Although Chicago has redeveloped its share of large, multi-acre 
brownfields with big economic impacts, we've learned what a profound 
effect it can have on a community to focus on smaller brownfields too. 
Even on quarter- or half-acre lots, Chicago has turned brownfields into 
important community resources such as comer parks, affordable homes and 
nursery schools. Most of these were abandoned service stations where 
the main contamination was from underground storage tanks and 
associated petroleum contamination. We know other cities also wrestle 
with these kinds of sites and we believe federal assistance for cleanup 
should permit work at petroleum contaminated brownfields.
Superfund Liability
    One key for us in redeveloping both large and small sites has been 
taking ownership of the site. Chicago often accepts or actively pursues 
ownership of brownfields to prevent additional dumping or 
contamination, to ensure cleanup, even to help clear title. This 
important step could be much easier for cities if the federal 
government clarified Superfund liability at brownfield sites.
    We also encourage greater coordination between among federal 
agencies involved in brownfields projects. This will enhance the 
effectiveness and efficiency of federal participation, and avoid 
duplicative requirements.
    Perhaps our most fundamental lesson has been that for a City to 
maintain a vital economy and provide opportunity and a high quality of 
life for its citizens, it must confront and solve cleanup and 
redevelopment of brownfields. Environmental concerns are standard in 
transferring or developing anything larger than a residential lot, so 
success on a city-size scale depends on the local government's ability 
to effectively address those concerns in a way that meets its economic, 
environmental and quality of life goals.
                               conclusion
    In conclusion, on behalf of the City of Chicago, I would like to 
thank Chairman Duncan, Ranking Democratic Member DeFazio and the other 
Members for holding this important hearing and providing us with the 
opportunity to share our views. We are very encouraged that the 
subcommittee is continuing to seek passage of a brownfields bill, and 
we look forward to working with the members of the subcommittee and our 
colleagues in other cities to ensure the continuing success and 
enhancement of the nation's many brownfields redevelopment programs.
                                 ______
                                 

                Statement of Congressman Earl Blumenauer

    Thank you Chairman Duncan and Ranking Member DeFazio, I share the 
Subcommittee's commitment to developing meaningful brownfields reform 
legislation this Congress. I was proud to support HR 1300 last Congress 
when the Full Committee, in strong bi-partisan partnership passed it 
69-2, and regretted that we were not able to successfully pass this 
legislation, which dealt with brownfields and the larger issue of 
Superfund Reform, by the entire Congress.
    Brownfields redevelopment can be a positive step towards reducing 
public infrastructure costs and increasing private returns, while also 
saving natural resources. If we are to be successful in our efforts to 
build more livable communities--where families are safe, healthy, and 
economically secure--we need to first address the current liability and 
financing impediments that make it difficult for communities to 
redevelop their brownfield sites.
    A first step towards this goal is empowering local communities to 
participate, at the decision-making level, in the brownfield 
redevelopment process. In 1996, my community was selected as one of 
EPA's 16 Brownfield Showcase Communities. The city convened a group of 
citizens and worked with them to develop selection criteria and a site 
identification process for potential brownfield properties that yielded 
eight Showcase projects. The partnerships between government officials, 
citizens and business interests have made an important difference to 
our efforts. Overall, ours has been a positive experience working with 
EPA's brownfield program. It has enabled local municipalities to 
establish nationwide relationships and a communication network that 
promotes the sharing of best practices and innovative concepts In a 
timely fashion.
    I applaud EPA's efforts to be a resource for communities and to 
provide flexibility for finding ways to link brownfields redevelopment 
with improving air quality, preserving greenspaces, and improving 
transportation linkages. Their work with the Atlantic Steele 
development in Atlanta, Georgia is an excellent example of the benefits 
that can be realized by emphasizing federal flexibility, public-private 
partnerships and innovation in the ability to successfully redevelop 
such sites more quickly and cost effectively.
    Despite the progress that is being made, many substantial hurdles 
exist that are preventing communities from being able to redevelop more 
quickly and successfully the over 500,000 brownfields sites located 
across the country.
    One of the biggest frustrations on the front line is the inability 
to work on properties where the sole contaminant is petroleum. If we 
were able to redevelop just 25% of the abandoned gas stations in our 
blighted communities nationwide, the improvement in the socio-economic 
well being of those communities would be ten-fold. Yet, our hands are 
tied on this important issue due to the petroleum exemption that the 
brownfield program inherited through its' funding under CERCLA.
    The provisions provided in Section 203, Innocent Landowners, for 
property owners who have done their due diligence and unknowingly 
purchased contaminated property is an excellent step in the right 
direction. However, I would urge this Committee to consider making this 
provision retroactive. In addition, this proposed bill does not provide 
protection for brownfield developers who knowingly purchase 
contaminated property with the intent of redevelopment.
    I look forward to working with the members of this Committee in the 
months ahead to address these challenges, and once again develop 
strong, bi-pairtisan brownfields reform legislation.
                                 ______
                                 

    Testimony of Jack Brown, Environmental Health Director, Wichita-
SedgWick County Department of Community Health, City of Wichita, Kansas

    Throughout the nation, there are countless potential ``Superfund'' 
sites--areas where environmental contamination is so severe that the 
federal government deems it necessary to mandate cleanup. In addition 
there are many sites that are adjacent to, or in proximity to these 
areas, that lay idle due to the presence or perception of 
contamination: Brownfield sites. Many of these sites have been 
identified; the vast majority have not, and constitute a potential for 
environmental and economic devastation to many communities. Cleaning 
these sites will require local governments to make complex choices. 
Their decisions will be guided by issues of legal and financial 
liability, and will profoundly affect both the public and private 
sectors; influencing property values, tax base and economic 
development. The choices will have lasting impacts not only on the 
quality of the environment, but also on the community's economic well-
being.
    The City of Wichita, faced with a serious environmental and public 
health problem that threatened its economic development, downtown 
business district and tax base, acted quickly to forge a creative 
public-private partnership to avoid Superfund designation, and protect 
innocent property owners from serious economic loss. The program, which 
received national recognition from the Ford Foundation for its 
innovative approach involved all levels of government, responsible 
parties, local lending institutions and property owners within a six-
square mile area.
    Fifteen years of experience has shown that tremendous pressure has 
been placed on municipalities to find ways of coping with the negative 
impact of Superfund actions and Brownfield areas. Abandoned properties, 
declining tax values, loss of existing business and jobs, and loss of 
economic development opportunity have resulted.
    1. The Impact on Wichita. When a preliminary Superfund site 
investigation was initiated in the Gilbert & Mosley area which is 
located in the downtown area of Wichita in 1989, several imniediate 
problems occurred:
    <bullet> 1,400 acres, including downtown and residential areas, 
were within the area affected by contaminated groundwater.
    <bullet> Local banks discontinued lending operations in the area.
    <bullet> Several urban redevelopment projects in their late stages 
were blocked, and both business and residential property transactions 
came to a stop.
    <bullet> Businesses began to leave the area, taking jobs away from 
the urban core.
    <bullet> Property values were threatened by the stigma of the 
Superfund status and the accompanying restraint on property 
transactions. A study by the City Finance Office projected a rapid loss 
in tax revenues.
    <bullet> Most experts believed it would be 10 to 20 years, or 
longer, before these negative impacts could be reversed, if the area 
became a National Priorities List (NPL) site.
    2. The Wichita Solution. Some cities, including Wichita, have found 
ways of working through many of these problems. The solution which 
Wichita developed was to create a package of related proposals that 
addressed each of the problems:
    <bullet> The City convened a meeting among representatives of the 
United States Environmental Protection Agency, the Kansas Department of 
Health and Environment, bank officials, and City officials to request 
that the site become a ``City/State lead'' site, not an NPL site.
    <bullet> The City organized a ``Groundwater Task Force'' citizens' 
participation group, including retired professionals, university 
faculty, environmental groups, and business people to advise on the 
problem.
    <bullet> The City met separately with representatives of local 
banks and reached agreement in principle that, if the City took lead 
responsibility under a state settlement, and could grant ``Certificates 
of Release'' to ``innocent'' property holders and the banks, the banks 
then would agree not to deny loans solely on the basis of environmental 
contamination.
    <bullet> The City Council voted to utilize a Kansas tax increment 
finance (TIF) law to assist in the studies and cleanup and initiated 
the process by declaring the area a ``blighted'' area. This revenue 
would provide a secondary financial source for cleanup.
    <bullet> The City reached a settlement of $1 million with a 
potentially responsible party, providing for funding of the Remedial 
Investigation/Feasibility Study.
    <bullet> The City worked closely with the County government and 
local school districts, whose tax revenues were affected by the tax 
increment finance district, to explain the consequences of not 
proceeding with the cleanup program.
    The results were dramatic. Over 4,100 Certificates of Release have 
been issued, the Remedial Investigation/Feasibility Study is complete 
and Remedial Action will soon be under way. Property values in the area 
have rebounded, businesses have expanded, and new businesses have 
located in the site, adding more jobs in the urban area. In recognition 
of these accomplishments, the Ford Foundation and Kennedy School of 
Government recognized Wichita as one of their 1992 award winners for 
``Innovations in State and Local Government.'' Yet more remains to be 
accomplished. The City now is pursuing additional responsible parties 
for the estimated $30-40 million cleanup. Negotiations on cost recovery 
and further investigations may take several more years.
    3. Wichita has applied this model to another site. Subsequent to 
the implementation of the above project, an existing Superfund area has 
been addressed in the City's North Industrial Corridor site (NIC). The 
site is nearly as large as the Gilbert & Mosley site. Based on 
Wichita's success with the Gilbert and Mosley project the NIC site was 
taken off of the National Priorities List through a petition to EPA. 
This allowed the City of Wichita to handle the site in partnership with 
the State of Kansas in a fashion similar to Gilbert & Mosley. This site 
is in the Remediation Investigation and Feasibility phase resulting in 
significant City time and resources to address each of these sites.
    Other cities have followed the Wichita example or have invented 
their own models to solve Superfund and Brownfield problems. It is 
clear that cities need help to facilitate these practical solutions to 
these problems.
    4. Brownfield Program. As a consequence of the City's involvement 
in these programs many of the components have become part of the City's 
initiative called the ``Heart of Wichita''. This initiative looks to 
revitalize Wichita's inner city through 50 different actions developed 
by staff and stakeholders through a Redevelopment Incentives Task 
Force. A vital part of this strategy is to turn land that is 
contaminated, or perceived to be contaminated, into viable property by 
clarifying the properties' environmental status and taking actions to 
assist in property redevelopment. Wichita is a Brownfield Pilot city 
that has tried to utilize a Brownfield Revolving Loan Fund, to provide 
low interest loans to qualifying persons interested in developing idle 
Brownfield lands. Unfortunately, the pilot program has not been 
particularly successful due to the complexity of the procedures and 
difficulty of managing both the assessment and finance side of the 
project.
    5.What Can Congress Do? Several things come to mind immediately:
Clarify authority for cities to grant contribution protection
    Wichita's program continues to operate successfully, and there have 
been over 5,800 Certificates of Release granted. However, Wichita and 
other cities need the advantage of a clearly defined authority to grant 
contribution protection to innocent parties and settling parties. One 
of the strongest inducements to settlement in Superfund and Brownfield 
cases is the issuance of a release to a potentially responsible party. 
This also facilitates property transactions and encourages economic 
development.
    EPA has issued a limited number of releases to innocent purchasers 
and prospective landowners at similar sites, and EPA also grants 
releases through settlement with de minimis parties. Each process is 
cumbersome and unduly lengthy.
    Cities need clear authority enabling the issuance of a release that 
is binding on all persons, including state, local, and federal 
governments, to assure that no further action can be taken against a 
settling party for matters within the scope of the settlement.
Cities need a method to ``jump-start'' Superfund cleanups
    One of the most frustrating aspects of starting a Superfund 
Brownfield cleanup program is the lack of funding for source control or 
interim remedies, where it is clear that some immediate action would 
mitigate all or much of an environmental threat. Private parties are 
reluctant to make a commitment because of liability concerns. Cities 
frequently are under budget constraints that prevent such commitments, 
and may take a year or longer to budget such expenditures. Most state 
agencies do not have discretionary funds for these activities. It makes 
sense that some portion of Superfund response action funding be 
provided to states and cities committed to ``early response'' or 
``interim remedy funding'' to minimize future costs and to demonstrate 
that at least a partial solution can be reached quickly. This has the 
potential to cut years off of the cleanup time for most Superfund 
sites, and to encourage private parties to cooperate early in cleanup 
activities.
Cities need help with the identification of potentially responsible 
        parties
    Reliable, factual information regarding potentially responsible 
parties can be difficult for cities and other private parties to 
obtain. EPA's own potentially responsible party searches frequently 
focus only on the largest and most visible parties, which then must 
spend their resources identifying others. To make this process more 
fair, a uniform set of criteria for identifying parties should be 
established, and EPA should be required to pursue parties thus 
identified if the parties will not cooperate in cleanup activities.
Cities need participation by all parties in an early allocation 
        proceeding to apportion liability
    The current Superfund process drives many parties to ``hide in the 
weeds'' when efforts are made to raise funding for remedial 
investigation/feasibility studies or other response actions. In many 
cases, litigation has been the only real threat non-cooperating parties 
face. Use of an allocation process at an earlier stage will improve 
public/private cooperation by identifying the share of responsible 
parties, the share of local government, and the share of absent 
parties. Absent party shares then can be addressed by mixed funding.
Mixed funding should be provided to represent absent shares
    EPA has utilized mixed funding in a limited number of examples to 
encourage overall settlement. Mixed funding draws money from the 
Superfund to represent the share which otherwise should be paid by 
parties which cannot be found or have become insolvent. Early approval 
of mixed funding to demonstrate that the EPA is willing to apply 
federal funds to a portion of a cleanup project will encourage the 
participation of public/private parties. Simply, it is much easier to 
settle with private parties when there has been an allocation of 
shares, some estimation of overall costs, and a sense of fairness is 
applied through federal funding for the share of absent parties. Mixed 
work is a related concept by which Potentially Responsible Parties 
(PRP's) and EPA divide cleanup duties at a site, usually with EPA doing 
work representing the share of an absent party. This mechanism should 
be made available more easily to facilitate settlements.
Realistic risk assessments should be applied
    Many Superfund sites have faced enormous cleanup costs because of 
unrealistic risk assessment scenarios. For example, many risk 
assessment protocols are based on the hypothetical assumption that an 
individual will be born at or near a contaminated site, live their 
entire lifetime of 70 years at the site, ingest portions of soil during 
their infancy, drink several liters of contaminated groundwater each 
day and consume vegetable crops grown in a garden on a contaminated 
site.
    By contrast, the Kansas Department of Health and Environment and 
the City of Wichita have reached a realistic risk assessment scenario 
for the Wichita site, taking into account institutional controls 
imposed by the City to restrict groundwater use for drinking water 
purposes. Such practical institutional restrictions eliminate the 
unrealistic hypothetical scenarios used at many sites, and will 
facilitate the reduction in time required to clean up superfund sites 
by many years, which has the potential to save many millions of dollars 
at each site. EPA should honor risk assessments approved by a state 
agency, even when done by responsible parties at a site under state 
oversight.
Realistic cleanup goals should be applied
    Restoring groundwater to extremely restrictive drinking water 
standards may not be warranted where institutional controls prevent 
exposure. The Kansas Department of Health and Environment concluded 
that ``alternate concentration levels'' were appropriate for Wichita, 
taking into account the City's institutional controls and relying on 
containment of the contaminated plume of groundwater. This single 
factor probably will save millions in remedial costs, and will result 
in adequate protection of human health.
Removal of sites from NPL should be authorized when there is City/State 
        agreement
    Even though a site is on the NPL, legal requirements should be 
clarified to provide that such a site can be removed and responsibility 
given to cities and states which have the ability to undertake a 
cleanup program.
EPA oversight costs
    EPAs oversight costs represent an unknown factor in calculating 
project costs. Oversight costs should be clarified at the outset of 
each project, and evaluated for appropriateness.
    On behalf of the City of Wichita, we appreciate the opportunity to 
share this information and to present our suggestions. We will be 
pleased to provide any other related information or suggestions.
                                 ______
                                 

   Testimony of Thomas R. Hoover, City Manager, City of Worcester, MA

    On behalf of the City of Worcester, I thank your Honorable Body for 
the opportunity to give testimony on the issue of Brownfields 
Redevelopment and the City of Worcester's efforts to date in addressing 
this major Urban problem. I also want to extend special thanks to 
District 3 Congressman James P. McGovern, for his tireless legislative 
efforts regarding brownfields and related urban issues.
    The City of Worcester is the second largest city in New England, 
and together with our surrounding communities represents a historic 
industrial center, which gained prominence as a major producer of 
manufactured goods that were important to the early and subsequent 
stages of the American Industrial Revolution. Worcester's legacy as a 
City of Innovation and Invention continues today as we enter the New 
Millenium. Named an ``All-America City'' in 2000, by the National 
League of Cities, the City's innovative approaches to Social, Economic, 
and Quality of Life Issues have been nationally recognized.
    As with similar Urban Centers across the United States, and 
particularly in the Northeast, a major deterrent to continued growth 
and expansion of our economic base is the lack of readily available and 
developable industrial sites in Worcester. The controlling factor in 
the lack of suitable sites is Brownfields contamination.
    Virtually all of the city's industrially zoned land has been 
previously developed. Of the 2,089 acres of industrially zoned land in 
Worcester., approximately 25% in over 200 sites are classified by the 
Massachusetts Department of Environmental Protection (DEP) as 
experiencing various levels of contamination. In addition, there are 
scores of additional properties that are not listed with DEP. However, 
because of prior uses they are highly suspect of being contaminated.
    It is well documented that abandoned and/or underutilized 
brownfield sites cause economic distress in surrounding neighborhoods 
which can lead to a number of traditional inner-city social, health and 
safety problems. The city's inner-city neighborhoods, which were once 
stabilized by large manufacturing plants, are now fractured by the 
vacant industrial complex that previously provided jobs and stability 
to the area.
    It is clear that the complexity of the Brownfields problem exceeds 
the normal market considerations of private enterprise. In many cases 
the cost associated with site remediation exceeds the base market value 
of the property. It is therefore incumbent upon the public sector to 
continue to review this issue in order to identify and address the 
obstacles to urban revitalization that are presented by the existence 
of brownfields contamination.
    In response to these critical issues, the City of Worcester and 
Commonwealth of Massachusetts have taken many steps toward reclaiming 
our derelict Brownfield's Sites.
    Since the enactment of the 1980 Federal Superfund Legislation, the 
Commonwealth of Massachusetts has taken great strides toward compliance 
with this important law. Revisions to the Commonwealth's General Laws 
were enacted in 1993 which streamlined the remediation process through 
privatization. In 1998, Chapter 206 of The Massachusetts General Laws 
established new incentives to encourage private clean-up and 
redevelopment of contaminated properties. This legislation provides 
liability relief and financial incentives to attract new investment of 
private capital while ensuring that the Commonwealth's environmental 
standards are met.
    On the local level, the City of Worcester has also been pro-active 
in addressing Brownfields issues. In 1995, the City of Worcester 
sponsored legislation which established the Central Massachusetts 
Economic Development Authority (CMEDA), a regional brownfields 
redevelopment model, based upon a revolving fund and whose membership 
includes the City of Worcester and surrounding communities. CMEDA is 
currently limited in its operations due to lack of financing. In 
addition, the enactment of new state legislation to address Brownfields 
in 1998 incorporated many of the benefits provided by CMEDA.
    A major investment of $40 million in City and State funding was 
also made in Worcester's Central Business District in the mid-1990's 
which resulted in the assemblage of 36 acres of contaminated 
brownfields properties. The City, through the Worcester Redevelopment 
Authority expended approximately $12 million for clean-up of these 
properties that led to the construction of a $240 million hospital 
facility in the Center of downtown. The Worcester Medical Center is now 
open and adding jobs and tax base to the City of Worcester.
    Other projects in the planning stage are the redevelopment of the 
South Worcester Industrial Park, a 25-acre former industrial complex, 
and the Gardner/Kilby Hammond project, a joint proposal to develop a 
new Boys and Girls Club, athletic fields for Clark University, and 100 
units of new housing in the City's Main South District. Again, we 
arefaced with environmental clean up issues which hamper our progress 
with these plans. The City has commissioned preliminary environmental 
assessments on these properties which indicate that the cost to 
remediate the South Worcester Industrial Area alone approaches $12 
million. The City has also completed demolition of the former Coes 
Knife Complex, an old cutlery manufacturer, and is faced with 
approximately $500,000 in environmental cleanup costs to complete what 
is planned to be a neighborhood recreation area.
    Other local Brownfields redevelopment projects include a recent 130 
room Marriott Courtyard Hotel completed in 1999. This $20 million 
private initiative was made possible utilizing the ownership and 
conveyance authority of the CMEDA and was completed under the guidance 
of a local private development corporation.
    The City also has adopted legislation which waives local fees for 
brownfield's redevelopment, and has adopted the provisions of 
Massachusetts General Laws which allow communities to abate delinquent 
taxes to promote redevelopment of Brownfield properties. Finally, in 
January of this year my staff completed the attached comprehensive 
Brownfields Redevelopment strategy, which outlines Worcester's future 
goals relative to Brownfields reclamation. Financing strategies are 
also a component of this plan.
    In short, the City of Worcester, in partnership with the State and 
Federal Government, has been making significant progress in the area of 
Brownfields redevelopment. However, our current efforts need to expand 
as we target our existing vacant and underutilized properties for 
continued economic growth. Worcester is truly a city on the move. There 
are currently seventy (70) projects under negotiation, proposed, or 
underway in Worcester which have the potential to generate $2.7 billion 
in development costs over the next several years. These projects could 
yield thousands of new jobs, millions in new tax revenues, and over 3 
million square feet of industrial and commercial space to accommodate 
new and expanding business, as well as, quality housing for area 
residents.
    As this development momentum continues, the reclamation and 
redevelopment of the many Brownfields properties in Worcester will 
become more and more critical.
    It is imperative that the public sector continue to commit 
resources and technical expertise to the issue of Brownfields 
redevelopment. While the level of local, state, and federal assistance 
to date has been significant, I respectfully request that this 
Committee review existing appropriations with a commitment toward 
developing additional resources which will address the financial gap 
that prevents private investment in Brownfields sites.
    Continued support for programs such as Brownfield Revolving loan 
funds, the Better America Bond Program, and new innovative financing 
tools that address the funding gap associated with Brownfields 
properties all merit continued support from the local, state, and 
federal agencies committed to urban revitalization. Government 
participation in these programs would reap immediate results. We are 
working on a daily basis to bring our contaminated land back into safe, 
productive use.
    In closing, I also encourage this Honorable Committee and all other 
federal regulatory bodies to keep Brownfields Redevelopment as a high 
priority issue during future deliberations.
                                 ______
                                 

Brownfields Redevelopment Strategy--Worcester's Opportunity to Reclaim 
                           Problem Properties

    A successful brownfield redevelopment strategy integrated into the 
overall economic development strategies put forth by the administration 
of the City of Worcester will lay the foundation for the redevelopment 
of brownfield sites and the commensurate public and private benefits 
that will accompany the cleanup of contaminated sites. However, 
successful brownfield redevelopment must overcome several critical 
barriers that have been well documented. These include the lack of 
process certainty and finality; liability concerns; added expenses of 
environmental cleanup; and readily available redevelopment financing 
resources available for brownfield projects. Therefore, an aggressive 
multi-faceted strategy to address the redevelopment of brownfield sites 
in order to return these sites to productive re-use is a priority of 
the City administration, and is in keeping with economic goals and 
quality of life goals that have been established to make the City of 
Worcester the most livable medium sized city in the Northeast.
    The City of Worcester has over 200 documented brownfield sites of 
different sizes, and with varying degrees of environmental 
contamination. In addition there are countless more sites, not 
documented, that are strongly suspected to be brownfield sites because 
of prior use. Therefore, the City of Worcester has developed the 
following strategy to aggressively promote brownfield sites for future 
redevelopment in order to create jobs, expand the tax base, create 
sustainable development and restore neighborhoods surrounding 
brownfield sites.
    The City of Worcester has prepared and submitted a grant 
application to the United States Environmental Protection Agency (EPA) 
requesting up to $1,000,000 to create a Brownfields Revolving Loan Fund 
in order to aggressively pursue the cleanup of brownfield sites that 
are strategically located within the City of Worcester. The EPA funds 
would provide the City of Worcester with an opportunity to offer loans 
to developers at very favorable interest rates and would also provide 
opportunities to leverage private financing at favorable interest rates 
for brownfield projects which may involve necessary redevelopment 
activities that are not otherwise eligible under the EPA Brownfields 
Cleanup Revolving Loan Fund. Therefore, the overall goals through the 
establishment of a Brownfields Revolving Loan Fund program are to 
provide a source of funds that will be leveraged with both private 
financing and additional public dollars to address redevelopment issues 
associated at brownfield sites throughout the city, and to aggressively 
pursue partnerships with both private and public entities involved in 
brownfields matters.
    The city's Brownfields Redevelopment Strategy (BRS) can be divided 
into seven basic stages. These stages may be undertaken by private 
developers and/or by the city as sponsor. The stages in the BRS and the 
particular activities associated with each stage create different 
financing needs. Each individual site presents its own unique 
opportunities and challenges. In addition to matching financing sources 
to the BRS site, developers need to consider what stage(s) of the BRS 
process must be funded. The seven basic stages of the BRS and the 
associated activities include:
    <bullet> Site Identification. Development and maintenance of a 
registry of sites, helping developers find ones that meet their needs, 
and advertisement and marketing of abandoned sites;
    <bullet> Initial Site Assessment (Phase I Investigation). Review of 
public records, physical surroundings, and other readily-available data 
regarding the site;
    <bullet> Economic Assessment. Evaluation of site characteristics, 
advantages, and limitations, and comparison to the initial site 
assessment to determine whether a site is currently viable, potentially 
viable, or non-viable for redevelopment;
    <bullet> Detailed Site Assessment (Phase II Investigation, if 
required). Environmental engineering investigation, sampling, and 
chemical analysis of the site;
    <bullet> Project Development and Financing. Selection and financing 
of a cleanup and redevelopment project(s) for the site;
    <bullet> Cleanup Planning and Execution. Selection and 
implementation of a cleanup approach; and
    <bullet> Redevelopment of Property. Construction or alteration of 
the property to suit the new use for which it is being redeveloped.
                          site identification
    The city will continue to identify and update brownfield sites in 
order to assist developers to identify sites with desirable 
characteristics and undertake advertising and marketing activities that 
outline the assistance available in order to promote site assessment, 
cleanup, and redevelopment. In the private sector, developers can look 
for potential sites by using these public resources. These are 
primarily low cost activities that need a continuous low level of 
financing to operate and maintain.
            initial site assessment (phase i investigation)
    Initial site assessment activities can often be performed at 
relatively moderate cost. There are a number of ways to identify 
suspected contamination that rely on existing records, historical data, 
and other readily-available sources:
    <bullet> Examine historical data to review historical uses and 
applicable federal and state reports of hazardous substances on the 
property;
    <bullet> Research the chain of title/zoning history--who were past 
owners of the land, what activities were licensed;
    <bullet> Examine similar characteristics for neighboring 
properties;
    <bullet> Check for prior environmental audits and assessments (OSHA 
safety reports, etc.);
    <bullet> Review insurance policies to determine covered activities 
that might have involved potentially-hazardous chemicals; and
                          economic assessment
    A key distinction must be made between those sites in the city that 
are in desirable locations and have the potential to attract buyers and 
developers and sites that have no interested buyers and few potential 
uses. If there is no potential economic return to outweigh the cost of 
restoring a site to a useful state, no financing strategy will induce 
its redevelopment until and unless this condition changes. To determine 
what the redevelopment potential of a site is, an economic assessment 
must be performed. For the purpose of developing financing strategies, 
the sites can be divided into three basic categories outlined below:
    <bullet> Viable Sites. Sites that are already economically viable, 
and where the private market is already working towards redevelopment 
without public assistance. These sites either have very low potential 
for environmental liability, or such high potential rates of return 
that the advantages outweigh the risks from the project sponsors' 
(developers and investors) perspective.
    <bullet> Threshold Sites. Sites that are only marginally viable, 
and will not be redeveloped without some public assistance. These sites 
may have either fewer economic advantages than the viable sites, or 
they may have greater potential for environmental liability.
    <bullet> Non-Viable Sites. Sites with significant potential for 
environmental liability, and/or whose economic advantages are minimal 
at best. These sites require substantial public assistance to redevelop 
(in the form of subsidies), or should be left alone, if possible.
                  part one: emplementation of the brs
A. Match goals to sites
    Decisions to invest in any of these three kinds of brownfields 
sites depend on the goals of the particular investor. To better 
leverage public investment, the city will direct public resources to 
those sites where the private sector is unwilling or unable to finance 
projects--threshold and certain selected non-viable sites. To the 
maximum extent possible, that public investment will be leveraged with 
private financing. A major objective of the BRS will be to move 
threshold sites into the viable category, and nonviable sites into the 
threshold and viable categories so that private investment can be 
attracted to them.
B. Strategies for viable sites
    Typically, viable sites should need little or no direct investment 
of public funds. However, private owners and developers interested in a 
viable site may still require assistance in dealing with the regulatory 
and liability difficulties associated with brownfields assessment, 
cleanup and redevelopment. BRS components that may be appropriate for 
viable sites include:
    <bullet> timely review and comment of assessment and/or cleanup 
plans and proposals by regulators;
    <bullet> use-based cleanup standards, reflecting the intended use 
of the property;
    <bullet> liability clarification so that risk can quantified, and 
then managed or sold; or
    <bullet> liability release (such as a covenant-not-to-sue) after 
the cleanup is completed.
    These strategies facilitate private sector investment in the BRS 
while conserving public resources for sites that would not otherwise be 
commercially viable.
C. Strategies for threshold sites
    Threshold sites may possess significant potential for assessment, 
cleanup and redevelopment but need some public assistance to increase 
the rate of return on the possible investment or to limit the potential 
for environmental liability before developers will consider investing 
in them. BRS financing components can be selected to target either 
need.
D. Strategies for non-viable sites
    Non-viabIe sites may require significant investments of government 
resources to make an otherwise unattractive site economically viable. 
These sites are unlikely to attract private capital under most 
circumstances. Unless a severe health and/or environmental risk exists 
or becomes apparent, the BRS will target its assessment, cleanup and 
redevelopment efforts to viable and threshold sites before addressing 
non-viable sites.
   iii. detailed site assessment (phase h investigation, if required)
    At this stage, a site is assessed to determine the level and extent 
of environmental contamination. The costs can vary widely depending on 
the severity of the problem, and the intensity of the site 
investigation required under state law. If the initial site assessment 
shows that there is potential contamination, a more expensive and 
detailed assessment is then performed. This involves:
    <bullet> Environmental engineering;
    <bullet> Sampling; and
    <bullet> Chemical analysis.
    In some cases, the private sector may be unwilling to pay for this 
stage of the process, because if a site is found to be too 
contaminated, the project will never be developed. This suggests that 
additional financing tools may be required at this point, for example 
those administered through the Governor's Office of Brownfields 
Revitalization.
                 iv. project development and financing
    At this stage, feasibility studies may be required and the 
project's financing must be arranged. Activities at this stage include:
    <bullet> Financial feasibility studies for the project; and
    <bullet> Development of a financing plan for cleanup and for 
redevelopment.
    This stage might include city-sponsored meetings with lenders, 
insurers, proposed project partners, and affected neighboring 
communities (their representatives and citizen groups).
                   v. cleanup planning and execution
    This stage can involve high capital costs, because of
    <bullet> Site remediation;
    <bullet> Associated public notice requirements; and
    <bullet> Preparation of reports for regulators.
                     vi. redevelopment of property
    Depending on the type of project selected, this stage can involve 
construction, clearance, and reuse of the property. Activities at this 
stage include:
    <bullet> Site clearance/demolition (after remediation); and
    <bullet> Construction of facilities.

  Statement of Honorable Patrick L. McCrory, Mayor, City of Charlotte

    Chairman Duncan and Members of the Subcommittee. My name is Patrick 
McCrory and I am pleased to speak with you today as the Mayor of the 
City of Charlotte, North Carolina and to share with you my City's 
experience in addressing Brownfield sites.
    I would like to begin my remarks today by saying that Mayors across 
this country have been on the forefront of Brownfield issues for at 
least a decade. I serve as the Chairman of The U.S. Conference of 
Mayors Energy and Environment Committee, so I have learned of the many 
initiatives underway by Mayors across the country. It is the local 
governments that are finding innovative ways to address Brownfields and 
get contaminated properties cleaned-up, back in use, and on the tax 
rolls. However, without federal funding we, as Mayors, would not be 
able to undertake half of the initiatives that we have in Brownfield 
remediation.
    I, like Mayors across the country, certainly welcome the Federal 
government's partnership on this issue--Charlotte has been able to use 
Federal monies to clean up several sites in Charlotte. I would also 
like to say that I am encouraged by the bill working its way through 
the United States Senate that would continue to support local 
governments by providing additional financial resources to help clean 
up Brownfield sites. This is a positive sign of Congress' efforts to 
work with local governments and partner together on issues of 
significant importance, especially to many of our metropolitan cities.
    As many of you know, Charlotte is a Sun belt city that is not as 
industrialized as many Northern cities, yet a University of North 
Carolina study found over 1,000 sites where perceived contamination 
would complicate real estate transactions. Clearly Charlotte does not 
have the resources to address all these properties, yet we are losing 
businesses who are interested in locating to the City, but lack the 
money, technical resources and time to consider Brownfield land to 
locate their enterprises.
                   nfl stadium brownfield experience
    One of Charlotte's first forays into tackling brownfields was in 
1994, when the City of Charlotte was working to assemble land in the 
center city to site a football stadium for the City's NFL Carolina 
Panthers Franchise. The City was able to assemble 13.4 acres for the 
stadium and practice fields, but in doing so found that several acres 
of the land were identified as a State Superfund site. The land 
contained high levels of Lead and PCB contaminants. Knowing the site 
was contaminated, the City agreed to buy it at $13 per square foot, yet 
made arrangements with the seller that money to clean up the site would 
come out of the purchase price, which ended up dropping the purchase 
price to approximately $ 10 per square foot.
    The remediation of the land involved placing much of the 
contaminants in a waste cell that presently occupies part of the 
property, some of the contaminants were solidified to be immobile and 
others still were mixed with stabilizing material and sent out of state 
to a hazardous waste site. The total cost for the clean up was 
approximately $3 million with the city paying over $1 million (deducted 
from the purchase price), $.5 million fromDuke Power company, and 
several other smaller amounts from different companies, including 
$50,000 from the State of North Carolina. Although the Federal 
government did not expend any funds for the remediation of this site, 
the Federal government took the unusual step of releasing the site to 
the State of North Carolina to oversee the remediation. It is my 
understanding, that this was the first time in Region 4 history that 
the federal government had released a site to be cleaned up by a local 
government. The result of this effort is that the City of Charlotte now 
has a beautiful NFL stadium and practice field on valuable Center City 
land that is generating property tax from the owners of the Carolina 
Panthers. The City of Charlotte was awarded the Phoenix Award in 1998, 
one of only three cities to be recognized that year by the Engineering 
Society of Western Pennsylvania for Brownfield clean-ups in the United 
States. In addition to the Phoenix award, the City of Charlotte has 
been used as the model in writing property transaction language that 
includes a covenant not to sue future landowners for remediated 
Brownfield property. Most importantly, the land today still tests non-
detective for contaminants.
    The most telling success story of cleaning up the Brownfield land, 
is that the City kept four acres of the original 13.4 acres of land to 
house the waste cell and serve as a buffer area for the football 
practice field. The City recently agreed to sell the four acres of land 
in February for a mixed-use development for $29.54 per square foot 
through a competitive bid process. The sale is contingent on the City 
removing the waste cell located on the property. After removing the 
waste cell and remediating the four acres for approximately $1.8 
million, the City will still net $4.8 million and put an additional 
four acres of prime Center City real estate back on the tax roll.
           establishment of the charlotte brownrield program
    During the City's positive experience with the NFL Stadium 
Brownfield issue, the City decided to develop a comprehensive approach 
to tackling Brownfield issues citywide. The Charlotte Brownfield 
Program was established for two main purposes:
    (1) Incent (re) development in distressed areas
    (2) Provide economic and environmental justice
    In conjunction with meeting the two stated purposes of the 
Brownfield Program, the program includes several tangible outcomes we 
intend to achieve, including using redevelopment to
    <bullet> assist in providing services and jobs to the community
    <bullet> remove blight
    <bullet> increase the tax base
    <bullet> retain and attract quality businesses
    <bullet> reduce potential of harm to the community because of 
contamination
    The City's first area to implement this new Brownfield Strategy was 
the former industrial area known as South End and a nearby neighborhood 
known as Wilmore.
                       south end success stories
    In October 1996, the City of Charlotte was awarded a $200,000 EPA 
grant, with the grant focusing on engaging the private sector and 
banking community in Brownfield redevelopments. The South End was 
targeted because of the area's close proximity to the Charlotte 
Convention Center and NFL Ericsson Stadium. The Wilmore area was 
identified due to its location next to the South End and because of its 
inclusion in Charlotte's federally designated Enterprise Community.
    The original grant application identified a goal to assist 2-3 
private sector Brownfield redevelopments. This goal was exceeded with 
seven projects receiving assistance. Those seven projects spurred the 
investment of $17 million in the area and created 480 jobs. The seven 
projects include:
    127 Worthington Avenue: Mill renovated as Design Center of the 
Carolinas. Project received North Carolina's first Brownfield 
agreement, limiting developer liability, in April 1998. The $14 million 
dollar project is complete.
    320 Carson Boulevard: Thomas Construction, previously leasing space 
in the South End, purchased and renovated a former radiator shop for 
their offices. Project involved removal of contaminated soils and is 
complete.
    2213 Toomey Avenue: Manufacturing building to be renovated for 
Truck Equipment Manufacturers' expansion, adding approximately 20 new 
manufacturing jobs.
    1525 South Tryon: Gains Brown Design to purchase adjacent 
properties to renovate for lease to design businesses. Properties have 
been purchased and contamination removed.
    216 Dunavant Street: Cost Effective Maintenance purchased leased 
property to construct new building for their own offices and renovate 
existing building for lease. Property has been purchased.
    West Worthington Street: The Wilmore Community Development 
Corporation in partnership with Boulevard Centro bought land and is 
looking to build affordable infill housing.
    Westover Shopping Center: A dilapidated shopping center confiscated 
under drug seizure laws and turned over to the City of Charlotte. The 
land is in process of being demolished and rebuilt, but City has to 
address dry cleaning solvents on the site.
    Because of the federal EPA grant support and the redevelopment of 
the South End in conjunction with the City's light rail initiative, 
land prices continue to increase in the South End. Due to the 
Brownfield initiatives in South End and Wilmore, the City ofCharlotte 
was awarded a Savvy Award by the International City-County 
Communications and Marketing Association (3CMA). The award was 
presented for outstanding communication materials used for community 
meetings for the Wilmore neighborhood to identify redevelopment issues 
in their neighborhood. The City also won an International City/County 
Management Association (ICMA) award for our Brownfield Peer Exchange 
Program in 1998, which was selected based on the programs expertise in 
community involvement and brownfields redevelopment.
                 other charlotte brownfield initiatives
Brownfield Assessment Program
    In February 2001, the Charlotte City Council approved the creation 
of the City's Brownfield Assessment Program, which provides matching 
funds to property owners or potential property owners for assessments 
at sites suspected of contamination. The program provides 50% matching 
funds up to $20,000 per site for assessment activities that would lead 
to site redevelopment. The Program was started with seed money from a 
City appropriation of $140,000 and an EPA Supplemental Assistance Grant 
of $100,000.
Brownfield Clean-up Revolving Loan Fund
    In February 2001, the Brownfield Clean-up Revolving Loan Fund was 
approved by Charlotte City Council to loan funds to public and private 
borrowers for clean up at approved sites. The funds are loaned at 2% 
and are collateralized by a lien on the property. Repayments are due 
following construction of a project or at the closing of the permanent 
loan. The Loan Fund was established through a $500,000 EPA Brownfield 
Clean-up Revolving Loan Fund Grant. In addition to the Revolving Loan 
Fund Grant the City has also committed a $100,000 EPA Supplemental 
Assistance Grant for Assessment Pilots to this Loan Fund to offer more 
assessment and clean up assistance throughout Charlotte's entire 
distressed geographic areas.
    Both the Brownfield Assessment Program and the Clean-up Revolving 
Loan Fund share the same criteria for eligibility as follows:
    <bullet> Suspected contamination is eligible under EPA grant 
guidelines
    <bullet> Contamination is an impediment to redevelopment
    <bullet> Project's probability of success will increase with 
environmental issues resolved
    <bullet> Proposed end-use is consistent with community needs
    <bullet> Proposed use is consistent with adopted zoning and land-
use plans
    <bullet> All taxes due on the property are paid in full.
    In addition to the criteria, a Brownfield site selection committee 
consisting of five community representatives, an environmental 
representative and engineer, plus a banker, developer, and attorney 
reviews all program applicants.
NCDENR staffposition in Charlotte
    The City of Charlotte's commitment to cleaning up brownfields was 
enhanced by the City Council when it entered into an agreement with the 
State of North Carolina in February 2001 to fund $60,000 towards the 
services of a North Carolina Department of Environment and Natural 
Resources (NCDENR) staff member. The funding is for the staff member to 
work exclusively on Brownfield projects in Charlotte. This arrangement 
will help the City to address more Brownfield sites and expedite the 
review and application for agreements processing time with the state on 
identified sites.
                               conclusion
    Although Charlotte seems to be ahead of many cities in addressing 
the terribly critical area of Brownfield redevelopment, the City has 
really only been at this for a little more than five years. Our past 
successes have encouraged us to do more in this area, given the 
increase in the property tax base, the development of blighted areas, 
and the availability of land options for new and growing businesses. We 
feel we are on the right path in our Brownfield Development Program, 
but as you hopefully noted, we could not be doing several of our 
programs without State and Federal assistance.
    Mr. Chairman and members of the Committee, I thank you for allowing 
me to address the subcommittee today and I thank you for your continued 
interest in partnering with America's Mayor's and investing in our 
cities through Brownfield initiatives.
                                 ______
                                 

         Statement of Congresswoman Juanita Millender-McDonald

    I want to thank Chairman Duncan and Ranking Member DeFazio for 
calling today's hearing in order that we might focus on Brownfields 
Development. Today's hearing is an important opportunity to focus on 
the redevelopment of brownfield properties in local communities that 
have been on the front lines.
    I, like so many of my colleagues, have heard from my constituents, 
community groups, and local governments in my district whose quality of 
life and economic vitality is directly impacted by these contaminated 
sites. In my own district, Mr. Chairman, the communities of Carson, 
Gardena, Long Beach, and Lynwood have all been working actively to 
restore brownfield properties. It has become clear that brownfields 
revitalization requires broad federal involvement and the inclusion of 
the private sector and non-govemmental organizations.
    Brownfields are abandoned, idled or under-used industrial and 
commercial facilities where expansion or redevelopment is complicated 
by real or perceived environmental contamination. Frequently, these 
properties, once the source of jobs and economic benefits to the entire 
community, lie abandoned for fear of the contamination and the 
associated liability. Instead, companies bypass these brownfields in 
the urban core and head for pristine greenfields outside the cities.
    Restoring contaminated property can help bring life and vitality to 
a community. Making a once toxic area viable means more jobs, an 
enhanced tax base and a sense of optimism about the future.
    I am pleased that this subcommittee, with the help of our witnesses 
today, will once again examine the issues and obstacles involved with 
redeveloping brownfields properties. The insights you offer today will 
shape the development of any future actions by this Subcommittee and 
the 107th Congress, as we continue our efforts to restore environmental 
health for our Nation.
    I look forward to hearing the testimony of our witnesses today 
regarding their efforts in redeveloping brownfields properties within 
their own communities.
    Thank you, Mr. Chairman.
                                 ______
                                 

           Statement of U.S. Representative James P. McGovern

    As the only New England member of this subcommittee, I am compelled 
to mention the profound effect which both real and perceived industrial 
contamination has had throughout New England. New England's old 
manufacturing economy was a forordained casualty of U.S. free-trade 
policy. The textile, tool and wire companies have gone, as expected, 
leaving abandoned factories, blighted neighborhoods and contaminated 
brownfields.
    Brownfields are a compound tragedy for economically disadvantaged 
and free-trade impacted communities, Not only do brownfields pose 
public health risks, but economically speaking, communities that have 
been knocked down stay down. Businesses that might otherwise invest in 
communities do not for fear of being sued. Even the federal government 
is uneasy about investing in areas suspected to be brownfields. Last 
year this subcommittee undertook a bi-partisan effort to reauthorize 
Superfund and expand brownfields remediation efforts. I hope that this 
subcommittee will undertake similar efforts in this Congress,
    I would like to thank you, Mr. Chairman, for having Worcester City 
Manager Tom Hoover here to testify before the Subcommittee about the 
City of Worcester's efforts to address its brownfields problems, I have 
worked closely with City Manager Hoover on a number of brownfields 
projects, including the Gardner-Kilby-Hammond and the South Worcester 
Industrial Park projects, both of which I believe Mr. Hoover will 
elaborate on in his testimony.
    Worcester is the prime example of a city whose development is being 
impeded by brownfields. Approximately one hour away from Boston, 
Worcester has all the advantages of location and infrastructure. A 
regional airport, an intermodal rail port, and access to the interstate 
highway system are all reasons why Worcester should have thrived during 
Route 128's high-tech boom years. But brownfields have prevented 
thousands of new jobs from coming to Worcester and kept several 
blighted neighborhoods from being restored.
    Thank you, Mr. Chairman, and I look forward to working with you to 
address some of these issues in the next two years.

          Opening Remarks of Congressman C.L. ``Butch'' Otter

    Chairman Duncan, Ranking Member DeFazio, it is an honor to be here 
before you again. Brownfields legislation is one of the most important 
issues the subcommittee will take up this year
    Brownfields cleanup needs to be a state directed and controlled 
process. State and local communities know best what level of cleanup 
they need. Idaho's small communities, like those in other states, 
suffer the double burden of bearing huge cleanup costs for Brownfields, 
then seeing development go to, new sites that do not bear any risk of 
EPA involvement
    EPA needs to be refocused away from being an enforcement agency to 
an enablement agency providing financial aid, disaster assistance, 
technical expertise and national coordination. Micro management only 
helps bureaucrats in Washington.
    My distinguished colleague in the other body, Senator Crapo, has 
taken the lead in demanding that Brownfields legislation recognize the 
primary interest states and localities have in cleaning up Brownfields. 
I agree with the distinguished Senator that any federal legislation on 
Brownfields certify that in any cleanup where EPA has not mandated 
cleanup, or where cleanup has been completed to a state's satisfaction, 
EPA cannot step in without dire reason. I look forward to working with 
you, Mr. Chairman, and the other members of the sub-committee to draft 
common-sense brownfields legislation this year.
                                 ______
                                 

     Testimony of Christopher S. Pawenski, Coordinator, Industrial 
              Assistance Program, County of Erie, New York

               bethlehem steel site, lackawanna, new york
    Mr. Chairman and distinguished members of the Subcommittee, thank 
you for the opportunity to address this Subcommittee on issues 
involving the development of brownfields in our nation's urban core. My 
name is Chris Pawenski. I am the Coordinator of the Industrial 
Assistance Program in Erie County's Department of Environment & 
Planning. Erie County Executive Joel A. Giambra sends his regards. He 
fully supports federal regulation and assistance that will expedite the 
redevelopment of former industrial properties in our urban cores, 
thereby preventing development being forced out to our valued 
greenfields. Brownfield redevelopment has been made a priority by 
County Executive Glambra.
    The County of Erie, in cooperation with all local government 
entities as well as the State and Federal government, has been 
spearheading the revitalization of 2000 acres of brownfields within the 
Cities of Buffalo and Lackawanna. Our highest priority has been the 
transformation of the former Bethlehem Steel manufacturing site, in the 
City of Lackawanna, into a 21st Century industrial park utilizing the 
inherent assets of this location--water, rail, highway access--and its 
proximity to major markets in both the United States and Canada.
    First opened in 1899, the Bethlehem Steel site covers approximately 
1,600 acres along the eastern shore of Lake Erie. At its peak, the 
facility employed 25,000 workers in 7 million square feet of buildings 
with 25 miles of rail track. During WW II, the Lackawanna plant was the 
highest volume steel producing facility in the country.
    In 1983 the company decided to close down a major portion of its 
steel making activities at the Lackawanna Plant, idling over 20,000 
workers. Today the facility employs less than 1,000 workers. The 
company has demolished all unproductive facilities and over 1, 100 
acres remain a vacant expanse of brownfields. This represents a 
significant portion of our urban waterfront and mandates a need for 
economic development. Since the facility's closing, neighboring 
property values have plummeted over 50%, city population has decreased 
over 40% and the neighboring community has become a center of social 
environmental issues.
    In 1999, Erie County and the Bethlehem Steel Corporation developed 
a public/private collaboration to propagate the reuse of the vacant 
brownfield property. This collaboration brought together governmental 
agencies from all levels of government. The purpose was to define a 
path to move forward, which would remedy concerns of the agencies and 
at the same time fulfill the needs of the community. It was decided 
that an approximately 102-acre parcel would be targeted to be the first 
phase of redevelopment for a new industrial park. The Bethlehem Steel 
Corporation had agreed in principle to transfer the property title to 
public ownership.
    This first phase created the need to have the EPA involved since 
the entire Bethlehem site was under an Administrative Order of Consent 
and Interim Status. It also required the involvement of the NY DEC 
because of environmental liability concerns, as well as the involvement 
of other state agencies. Because of this early involvement of all 
agencies, EPA Region 2 notified the County of a pending RCRA 
Brownfields Prevention Initiative Pilot Program. An application was 
submitted in cooperation with EPA Region 2 and the Bethlehem Steel 
Corporation. The Bethlehem Steel Lackawanna site was one of four 
applications approved nationally for this new initiative.
    A task force was established with representatives from Erie County, 
Bethlehem Steel Corporation, NY DEC HQ and Region 9, and EPA's Office 
of Solid Waste and Emergency Response (OSWER) and Region 2. Within a 
couple of months the task force agreed on short and long term goals. 
The short-term goals were to remove the Administrative Order of Consent 
and to initiate the process between Bethlehem Steel and the NY DEC to 
enter the 102-acre site into a state voluntary clean-up program. The 
long-term goal was to establish a process that can be continued and 
assessment and remediation standards that can be moved forth on the 
remaining property that would be targeted for redevelopment.
Outcomes and successes
    Within ten months after the task force was established, short-term 
goals were primarily achieved. The Administrative Order of Consent has 
been removed from the 102-acre site, although it was determined that 
this goal could have been easily achieved eight years earlier. The 
release of this Administrative Order of Consent required a letter of 
request from the Bethlehem Steel Corporation accompanied by a land 
title survey.
    The NY DEC has agreed to let Bethlehem Steel Corporation enter into 
negotiations to put the 102-acre site into a voluntary consent order. 
This voluntary consent order will be similar, but not completely the 
same as the state's voluntary clean-up program. This is because of a 
policy between the NY DEC and EPA Region 2 that does not allow 
properties under Interim Status to enter into a state voluntary clean-
up program. This voluntary consent order is a first and only time 
adventure for the NY DEC. The NY DEC was willing to take this step 
because of the unified and early cooperation of this task force under 
this Brownfield Initiative Pilot Program.
    One of the keys to reaching the short-term successes was a two-day 
workshop and site visit by all members of the task force, as well as 
community leaders from the County of Erie, City of Lackawanna and 
neighboring communities. By bringing the task force members together in 
one room, issues were addressed and the development of solutions was 
expedited.
    Long-term goals continue to be pursued. Bethlehem Steel and the NY 
DEC are currently in discussions on what level of assessment and level 
of remediation standards should be used on the property. The task force 
maintains monthly conference calls, headed by the OSWER, but since the 
Brownfield Initiative Pilot is essentially over, the role of each 
member is not clearly defined. it is the individual members of the task 
force and their desire to be part of the solution to develop the means 
to reach the long term goals that keep this process moving forward.
Barriers Encountered
    There were basically two barriers encountered while trying to 
achieve the short-term goals. The first barrier was the unwritten 
policy between the EPA Region and NY DEC that discourages puffing a 
property under Interim Status into a voluntary clean-up program. This 
policy is not consistent throughout the country, as some Regions 
encourage voluntary clean-up programs on Interim Status properties. Our 
goal was to get this property under the state voluntary clean-up 
program that would require the expenditure of private funds for 
remediation of the property. Since this policy was not a written policy 
it was difficult to challenge it or seek an amendment to it.
    Our second greatest barrier was the lack of proactive direction 
when encountering areas that are not covered by law, regulation or 
policy. In order to work within the first barrier the task force 
determined the next best solution would be to amend the property lines 
as described in the Interim Status Order. After several weeks of 
discussion the attorney from EPA Region 2 directed us that amending the 
property lines, even if agreed by all concerned parties, would not be 
allowed. In depth discussion lead the County to ask for a copy of the 
regulation or law that stated this. To our chagrin, there wasn't 
anything that did not allow this amendment, the problem according to 
the attorneys is there is no regulation or law that allows for it. So 
in the absence of any direction in ``gray'' areas that did not define a 
path to be taken, the approach was ``let's play it safe''.
    We were able to go around these barriers by the NY DEC's 
willingness to develop the voluntary consent order. This is a first for 
the NY DEC, but unfortunately it is a one-time event. So when the 
remainder of the 1,000 acres is targeted for redevelopment, as well as 
other similar brownfield sites, these barriers will occur again. In 
summary, we went around the barriers but were unable to reach a 
solution to eliminate them. It should be noted that the barriers we 
encountered were not related to public health or safety issues. At no 
time was the proper clean-up or public safety going to be compromised. 
The barriers were strictly legal, procedural and administrative.
Federal Assistance and How to Expedite Brownfield Redevelopment
    1. The federal government needs to provide legislation that 
encourages a proactive approach toward brownfield redevelopment. When 
agencies encounter ``gray'' areas, the approach should not be ``play it 
safe'', it should be the approach that best suits the needs of the 
community. The federal government should always endeavor to be part of 
the solution, as opposed to ``staying out of the way'' of state and 
local governments. Agencies should also be given the direction to be 
proactive in reaching out to PRP's for assistance in removing RCRA or 
CRCLA Orders. Waiting eight years to notify a PRP should not be 
acceptable.
    2. Communities should not have to wait to be selected for a pilot 
program in order to get agencies from all levels of government 
involved. Consideration for creation of a permanent action response 
team(s) should be given. There is a considerable advantage to bringing 
together peers from different agencies to solve problems regarding 
brownfields; waiting once a year to hope to be part of a few selected 
communities is unreasonable. In essence, if the Bethlehem Steel 
Lackawanna site was not selected as part of this Brownfield Initiative 
Pilot, the short-term goals would not have been developed let alone 
achieved.
    3. Provide adequate resources to federal agencies to allow 
personnel to meet directly with the local community as well as other 
governmental agencies.
    4. Develop consistent policies throughout all EPA Regions. In 
particular, it should be encouraged to put properties under Interim 
Status into a state voluntary clean-up program.
    5. Develop legislation that gives special consideration to 
brownfields in communities with high levels of social environmental 
concerns. Brownfields have often led not only to the decay of 
neighboring properties but also to the decay in quality of life in the 
neighboring community.
    6. Provide assistance to regions that face the calamity of urban 
sprawl, simply because the effort of privately redeveloping brownfields 
cannot be justified compared to the ease of moving to our valued 
greenfields.
    7. Allow federal funding from different agencies be used on the 
same brownfield project. Develop criteria to allow this, but if 
different agencies warrant funding involvement in a brownfield project 
due public safety, health, social environmental issues, sprawl, etc. 
they should all be encouraged to participate and the community should 
not be limited to only one source of federal funding, especially in 
programs that require matching funds.
    8. Allow federal funding to be used in conjunction and 
participation with principle responsible parties (PRP) in voluntary 
clean-up programs when warranted. Often the PRP maintains ownership of 
a property but does not have the complete financial ability to enter a 
voluntary clean-up program. The result is the property becomes ignored 
by the PRP and the public and this leads to the growth in social and 
economic woes associated with brownfields. Also, the local government 
often forecloses on brownfield property because of delinquent taxes and 
then the public pays for 100% of remediation costs.
    9. Direct federal funding assistance directly to each local/
regional government. Let each community and/or region justify the need 
for federal assistance directly to the federal government. Allowing 
states to accept the federal funding and then distribute adds a level 
of bureaucracy that is undesired by those that are in need of this 
assistance. This approach is successful with the federal government's 
Community Development Block Grant Program. However, these funds are not 
sufficient to address brownfields.
    10. Provide significant funding resources directed at the 
remediation of brownfields. It is not uncommon to spend up to $100,000 
per an acre to remediate and redevelop a brownfield. The communities 
they are in typically cannot provide funding resources because of the 
detriments brownfields brings to the community. Many brownfields are 
located in economic and socially distressed areas and not in areas of 
high property demand or high property values. Most federal programs 
allow funding to be used for brownfield site planning and assessment 
and not for remediation. We must do more than just find the problem we 
need to also fix it. Not fixing the problem would result in the 
property remaining non-productive, non-tax producing and non-job 
creating.
Closing
    Brownfields have become the forgotten child in the field of 
economic development, not contaminated enough to warrant immediate 
federal and state assistance and not clean enough to warrant private 
investment. The alternative to not providing assistance and expediting 
brownfield redevelopment is unacceptable--allowing brownfields and 
their economic and social detriments to languish while we allow our 
valued greenfields to become the brownfields of tomorrow and leaving 
them to our future generations.
                                 ______
                                 

                     Testimony of James R. Williams

    Thank you, Mr. Chairman and members of the Committee, for the 
opportunity to address this subcommittee and provide positive evidence 
of the impact that federal, state and local dollars have had on the 
local Brownfields reclamation process in Chattanooga (Hamilton County) 
Tennessee. My name is James R. Williams and I am the Brownfields 
Program Manager for the Chattanooga-Hamilton County Air Pollution 
Control Bureau. Both our Mayor, Jon Kinsey, and our County Executive, 
Claude Ramsey, send their regrets that they were not able to be here 
today to testify. I will speak briefly about our local Brownfields 
efforts.
                            i. introduction
    In 1998, the Chattanooga-Hamilton County Air Pollution Control 
Bureau accepted the challenge of the Mayor and the Hamilton County 
Executive to develop a local government Brownfields Program. This 
program, which focuses primarily on the inner-city neighborhood of 
Alton Park, was created to address:
    <bullet> The tax revenues lost when industry left the neighborhood;
    <bullet> the need to develop new industrial sites for economic 
development opportunities;
    <bullet> the need to create jobs; and
    <bullet> the need to mitigate the environmental risks associated 
with idle or vacant properties.
    The governments of the City of Chattanooga and Hamilton County both 
committed funding for the Brownfields program and also garnered 
donations from a partnership created by five local utility providers.
                            ii. smart growth
    Throughout the United States cities and even small towns are taking 
on the challenge of smart growth. Redevelopment of brownfields sites is 
an integral component of smart growth. Redevelopment of these sites (1) 
protects the environment by reducing contamination and preserving 
undeveloped greenfield sites, (2) reduces the need for additional 
infrastructure, and (3) expands the local tax base and creates a return 
on government investment.
    Most significantly, smart growth can be achieved by making 
community development an integral part of brownfields redevelopment. It 
is not enough to clean up brownfields sites and return them to the tax 
rolls. They must also be restored and incorporated as integral 
components of the communities where they exist. In this way, a city 
will achieve the highest end use of that property.
    Before I continue on specific aspects of our program, I think it is 
necessary to provide the context for its development. Chattanooga's 
successful air pollution reduction actions are widely recognized as the 
springboard to current local sustainable development initiatives. 
During the 1960s, Chattanooga was considered one of the most polluted 
cities in the United States. However, over the last 30 years, our city 
has cleaned up its environmental act. Many events helped make this 
change possible, but it was the process of Visioning that acted as the 
main catalyst.
    Visioning, also called charrette, is a process of facilitated 
public dialogue designed to bring together various community 
stakeholders with different viewpoints, and to establish understanding 
where differences exist. The result is community consensus. Consensus 
developed through the visioning process allows the creation of a set of 
goals and projects and then provides guidance for those whose task it 
is to implement them. The visioning process enables the development of 
plans of action necessary to experience real results.
    Chattanooga's legacy of facilitated public participation started in 
1982 with the appointment of the Moccasin Bend Task Force. This 
initiative of public and private citizens was the foundation of other 
major community wide visioning processes:
    <bullet> Vision 2000 (1984)
    <bullet> Re-Vision 2000 (1993)
    <bullet> Southside Charrette (1996)
    <bullet> FutureScape Survey (1997)
    <bullet> Eastgate Charrette (1998)
    <bullet> ReCreate 2008 (1999)
    These community participation efforts helped to produce results in 
many local brownfields development areas. One example, Vision 2000, led 
to the redevelopment of Ross' Landing, and its centerpiece, the 
Tennessee Aquarium (1992). Ross' Landing is located in the center of 
Chattanooga, along the Tennessee River. In the early 1980s, the Ross' 
Landing area was the home to abandoned or closed warehouses, gas 
stations, trolley barns and other unused buildings. By 1998, the area 
had been redeveloped into the heart of Chattanooga's riverfront 
renaissance, even before brownfields initiatives were noted as an urban 
redevelopment strategy.
    Today, the total investment toward the development of the 
Chattanooga riverfront exceeds $400 million. The public-private 
partnership has contributed to an enhanced quality of life, offering 
new opportunities to live, work and play in attractive and safe 
downtown locations.
    Another example of brownfields development is the Southside 
Development District, and its kick-off project, Finley Stadium/Cricket 
Pavilion. This project is a multi-million dollar, multi use sports 
stadium and open space pavilion built on formerly contaminated soil. 
Through intense negotiations with the State of Tennessee, the 
Department of Environment and Conservation and the U.S. EPA, Region IV, 
a clean-up strategy was established and the revitalization of this 
important area began. More recent development projects in the Southside 
are the $43 million Chattanoogan Business Conference Center, which will 
have its official grand opening next month, and the $15 million 
Business Development Center, which is scheduled for opening in 2002. 
Both projects, which began construction over the last 18 months, 
utilize former brownfields properties.
    Community revisioning also led to the 1996 consolidation of the 
City and County school systems. School consolidation resulted in the 
needed revitalization of many closed school buildings and their related 
acreage. The City used creative, innovative means to bring these 
brownfields back to life. Three examples are Habitat Square, the James 
A. Henry Elementary School site, and the Joseph E. Smith Elementary 
School site.
    Habitat Square is a joint public-private partnership between 
Habitat for Humanity of Greater Chattanooga, the City of Chattanooga, 
and numerous volunteers and funding partners. This four-acre tract of 
land, a former elementary school site, was donated by the City for the 
construction of 20 three- and four-bedroom homes. The homes were built 
for low-income families with annual incomes of less than $12,000, and 
average family sizes of 4 or more. Habitat Square is the first 
subdivision constructed by Habitat for Humanity and is the site of the 
100th local house constructed through this organization of volunteers.
    The City donated the property for Habitat Square, which was 
appraised at $291,000, with a replacement value of $1.2 million. Over 
$700,000 was raised for the construction of the 20 homes with the City 
investing an additional $350,000 ($111,500 in Community Development 
Block Grant funds) in infrastructure improvements in surrounding 
neighborhoods on the perimeter of Habitat Square.
    Local residents formed a Homeowners Association that now takes an 
active role in setting the course of the neighborhood. As a result, new 
businesses have developed and slums and blight in the surrounding 
neighborhoods have been removed. In addition, several homes have been 
renovated and made available as affordable, single-family dwellings. To 
address the educational needs of children residing in the community, 
the Hamilton County Board of Education is beginning construction of a 
new middle school with an investment of over $14 million.
    The second example of school revitalization is the former James A. 
Henry Elementary School site. Donated to the Westside Community 
Development Corporation (CDC), which created local public-private 
partnerships focused on community development, the CDC transformed the 
site to a $1.2 million community resource center. Located in the heart 
of an inner city housing development, the City donated the building and 
$227,000 toward building renovations. The CDC was able to raise its own 
capital to acquire adjacent underutilized property to construct a $1.3 
million commercial complex that leases space to retail and service 
providers that serve the Westside community.
    The third example is the Joseph E. Smith school site, which was 
sold to a local African American church, Olivet Baptist. The church is 
completing construction of a $2.5 million sanctuary and social service 
building that will provide needed support to residents in the Martin 
Luther King, Jr. community, an inner city neighborhood.
                       iii. economic development
    If smart growth in the form of environmental protection and 
community development is the destination, then economic development is 
the vehicle for getting there. The bad news is that redevelopment of 
the 450,000--600,000 brownfields sites in this country is a Herculean 
effort. The good news is that there is ample private investment capital 
available for the job. Smart growth and economic development are 
inextricably joined. Therefore, groups who have often been antagonists 
in the past must now work toward a common goal.
    The preceding examples of brownfields reclamation for the 
Chattanooga community provide the context for our recently developed 
Brownfields office. Clearly, there exists one common thread, our 
visioning process. This process now guides our efforts in the 
implementation of our local Brownfields program, which is federally 
funded. In the last 18 months, the program secured two U.S. EPA grants:
    <bullet> $200,000 Brownfields Pilot Demonstration Assessment 
Grant--August 1999
    <bullet> $100,000 Superfund Redevelopment Initiative Grant--July 
2000
    Additionally, and most important, the Brownfields Program is a 
partner in the successful $35 million, HUD Hope VI Revitalization 
Grant, awarded in June 2000 to the Chattanooga Housing Authority for 
the Spencer McCallie Homes, a public housing development located in the 
heart of the Brownfields Pilot target community.
    This federal grant targets Alton Park, a community that contains a 
diverse mix of brownfields redevelopment challenges, such as abandoned 
manufacturing sites, residential neighborhoods, and the need for 
economic stimulus in the community.
    This area of approximately 3 square miles has over 300 acres that 
could be redeveloped for either residential or industrial/commercial 
use. Located within this area are some of our city's largest and most 
successful employers--employers that have had recent expansions of 
operations. Yet despite these expansion's, this target area remains one 
of the most economically depressed areas in Hamilton County.
    As part of each grant's work-plan, we recognized a need for a 
comprehensive redevelopment or revitalization plan for this community. 
Fortunately, this planning process received the full support and 
commitment of the Mayor and the County Executive, the Chattanooga City 
Council, and the Hamilton County Commission. Our local elected 
leadership has worked in a bipartisan way to fuel a resident-driven 
revitalization plan.
    In September 1999, Mayor Jon Kinsey hosted an initial meeting in 
Alton Park, which was attended by over 250 people. This meeting led 25 
residents to participate in selecting the charrette consultant, AA 
Baker & Associates of Tampa, Florida.
    The City and County funded a four-day community charrette in 
February 2000, and the consultant team facilitated a visioning process 
with input from over 500 stakeholder participants, resulting in the 
Alton Park Master Plan of Redevelopment for this community. The 
Chattanooga City Council officially adopted this plan in October 2000.
    Without citizen involvement serious conflict, mistrust and delaying 
interventions might have occurred, which would have made it difficult 
for positive change to occur. Instead, our process has enhanced 
accountability, ownership, empowerment, and a continued involvement, 
which is the ``Chattanooga Way.''
    The Program has engaged the services of an environmental 
contractor, a leader in brownfields reclamation locally, statewide, 
regionally, and nationally, to create a prototype GIS database of 
brownfields development sites. This database will incorporate both the 
economic development as well as environmental information necessary to 
attract investment from both the public and private sectors.
    The Program database will be a ``development tool'' that aims to 
augment our local economic development ``Cluster Model'' currently in 
use by our local Chamber of Commerce. Cluster growth will create new 
economic growth for our regional and the brownfields database will 
provide potential locations for this growth. Facilitating the Chamber 
Partnership will be critical to the development of the Brownfields 
Program.
    The aim of our Brownfields Program is to facilitate the 
revitalization of brownfields throughout the community by balancing a 
long-term process of brownfields remediation and reuse with active 
community participation and involvement. The Alton Park planning 
charrette was an important first step in the brownfields redevelopment 
process. The program hopes to use the model of the Alton Park community 
to expand the local effort to other Brownfield projects, such as the 
Volunteer Army Ammunition Plant site. Now the stage is set for the next 
critical elements, which are:
    1. Securing the funding that will lead to real change in this 
distressed community;
    2. Becoming clearer about the liability issues surrounding any 
brownfields project.
    Public sector dollars were secured in the last 18 months to help 
attract private investors to Alton Park. While the public-sector funds 
are substantial, private interest is ultimately what keeps a community 
alive. One way of creating a thriving community is to attract local 
business; another way is to attract homeowners. Both could be done by:
    1. Reducing lender risk using:
    <bullet> Loan guarantees
    <bullet> Companion/subordinate loans
    <bullet> Purchase of environmental insurance
    2. Reducing borrower's cost using:
    <bullet> Interest rate reductions or subsidies
    <bullet> Due diligence or loan packaging assistance
    3. Improving the borrower's financial situation through:
    <bullet> Repayment grace periods
    <bullet> Tax abatements
    4. Offering direct resources such as:
    <bullet> Grants
    <bullet> Forgivable/performance-based loans
    <bullet> Training and technical assistance
    In addition to private funding, government funding is used to fill 
in the gaps necessary to close brownfields deals. Public funds are used 
to purchase abandoned properties and environmental insurance, which 
helps eliminate or lessen the financial uncertainties of a project.
                 iv. private investment and uncertainty
    Uncertainty is the single greatest impediment to there development 
of brownfields sites. Unfortunately, current environmental law and 
regulations creates uncertainties about the potential liabilities 
associated with a site. This is exacerbated by the fact that there is 
no guarantee of how environmental liability will be apportioned now and 
in the future. This uncertainty may be minimized somewhat through 
extensive, up-front environmental investigations. But there is still 
the issue of the cost and time it takes to conduct the investigations 
and even if the investigations are conducted there is no guarantee that 
redevelopment will occur nor is there any way to know the potential 
negative impact of the investigations. Thus, uncertainty creates 
inaction, and capital goes elsewhere, leaving, the brownfields site 
undeveloped.
    Legislation has been drafted in the State of Tennessee to minimize 
the uncertainty caused by state environmental laws and regulations. The 
legislation is designed to clarify liability for current and future 
owners and operators. Prospective purchasers and developers will be 
able to enter into firm agreements with the State of Tennessee to 
accept responsibility for remediation of brownfields sites without fear 
of being sued in the future for additional liabilities. If 
cleanupcriteria are predicated on future land use patterns, legal 
mechanisms are available to ensure that land use will be limited as 
promised. Findley Stadium is an excellent example of how these 
agreements can help foster new uses of brownfields sites.
    Also, the new state brownfields legislation currently proposed by 
Governor Don Sundquist's administration underscores a commitment for 
brownfields redevelopment in Tennessee.
                   v. the role of federal government
    Business, communities, and state and local governments are 
accepting their responsibility in ensuring smart growth through 
redevelopment of brownfields sites. It is critical for the federal 
government to expand its leadership role. Currently, agreements between 
prospective purchasers and states to conduct voluntary cleanup of 
brownfields sites are not protected from future additional requirements 
by the federal government. This creates another form of uncertainty 
that inhibits redevelopment. Federal law should be changed to enable 
states and developers to make final and binding agreements without fear 
of future action by the federal government.
    The federal government can also support the efforts of state and 
local government through grants for the creation and operation of state 
and municipal brownfields programs. These grants would jump start 
brownfields redevelopment throughout the United States. At the same 
time, it would allow state and local governments to tailor their 
programs to the specific needs of their constituencies.
    While private investors will be able to redevelop most brownfields 
sites through normal means, some brownfields sites have a net negative 
value. The great majority of these sites will never be redeveloped 
without investment of public dollars. State and local government will 
continue to be sources of some of those dollars, but the federal 
government also has a responsibility to appropriate money targeted 
specifically for brownfields redevelopment. Further, existing funding 
programs should make brownfields redevelopment projects a priority when 
appropriating funds.
                             vi. conclusion
    In summary, development of our local brownfields has occurred in a 
variety of ways. Environmental factors alone did not necessarily 
control the brownfields redevelopment processes. There were other 
factors beyond environmental contamination that drove these brownfields 
reclamation projects. In most cases economic factors were the prime 
determinants of each project. Our local brownfields reclamation 
projects offered the best opportunity to not only recycle land, but 
also to better utilize existing infrastructure, e.g., roads, sewers and 
utilities.
    Each of the local brownfields reclamation successes in the 
Chattanooga-Hamilton County community has had the positive components 
of partnership with all levels of governnent--local, state, and 
federal--and public and private investment, combined with a successful 
public input process in developing a vision and a plan of action. Each 
of these successes required the necessity of coalition building and 
utilized a charrette process, which encouraged stakeholders to:
    <bullet> Hear and respect differing points of view;
    <bullet> Establish an extensive, diverse web of citizen task forces 
and organizations working to improve community conditions;
    <bullet> Plan and coordinate an interrelated approach to find 
solutions.
    This same methodology will continue to be the prototype for our 
local Brownfields Program.
    Our design is simple: Bring the community together to hear, plan, 
establish and coordinate solutions. This again is the ``Chattanooga 
Way.''
                                 ______
                                 

                    ADDITIONS TO THE RECORD

  Testimony of R. Bruce Josten, Executive Vice President, Government 
                   Affairs, U.S. Chamber of Commerce

    Chairman Duncan, Ranking Member DeFazio, and members of the 
Subcommittee on Water Resources and the Environment, I am R. Bruce 
Josten, Executive Vice President of Government Affairs for the U.S. 
Chamber of Commerce (``U.S. Chamber''), the world's largest business 
federation representing more than three million businesses of every 
size, sector, and region.
    We commend you for conducting this important hearing on 
redeveloping abandoned and potentially contaminated former industrial 
and manufacturing properties, commonly referred to as ``Brownfields'' 
sites. Thank you also for the opportunity to submit this testimony for 
the record on ``Brownfields: Lessons from the Field,''
    The U.S. Chamber believes legislation is necessary to encourage 
Brownfields redevelopment by reducing the uncertainty regarding the 
cleanup of Brownfields sites, and the separation of Brownfields 
redevelopment from the Comprehensive Environmental, Responsibility, 
Compensation, and Liability Act (``CERCLA'' or ``Superfund'') liability 
structure for sites with little or no contamination.
    In my testimony, I present recommendations that, if adopted, the 
U.S. Chamber believes will greatly accelerate the pace at which 
Brownfields sites are cleaned up and redeveloped for commercial, 
industrial and community uses.
Brownfields redevelopment should be a national priority
    Among the members of the U.S. Chamber's federation are 3,000 state 
and local chambers. Perhaps no other environmental issue impacts these 
chambers and their respective communities as much as Brownfields 
redevelopment. Various estimates indicate there are as many as 500,000 
Brownfields sites throughout the United States. These sites are blights 
on communities, drain the local tax base, hinder economic growth, and 
often pose environmental risks. The vast majority of Brownfields sites 
remain abandoned, derelict and unattractive to developers--even though 
these sites are usually located in areas with access to a strong 
workforce, and transportation and utility infrastructure--because of 
uncertainty regarding:
    <bullet> The nature and extent of potential contamination;
    <bullet> Potential liability to be imposed on the owners and 
operators of the site by the retroactive, strict and joint, and several 
liability provisions of CERCLA, and
    <bullet> The ability of state voluntary cleanup programs to enable 
Brownfields restorations without undue federal intervention.
The U.S. Chamber is a longstanding advocate of Brownfields reforms
    The U.S. Chamber has worked to bring together state and local 
governments, environmental regulators, local chambers, developers, the 
financial and insurance industries, and major sports organizations, 
such as the U.S. Soccer Foundation, to discuss strategies for 
Brownfields redevelopment. As part of this strategy, the U.S. Chamber:
    <bullet> Hosted the ``Brownfields to American Dream Fields'' 
conference in 1999 to explore methods to redevelop sites into athletic 
fields;
    <bullet> Hosted the ``Let's Make it Happen'' conference in 2000 
that centered on approaches to redevelop Brownfields sites as 
commercial and community facilities; and
    <bullet> Will convene the ``Brownfields Summit'' on June 18, 2001 
to highlight strategies for implementing new Brownfields legislation, 
should it be enacted, or efforts to promote and support Congressional 
Brownfields legislation.
Brownfields restoration initiatives are beginning to demonstrate 
        success
    Over the past few years, the U.S. Environmental Protection Agency 
(``EPA'') has established a process, through a series of policies 
described in guidance documents, that encourages states to assert 
control over the restoration of Brownfields sites.\1\ Currently, 35 
states have voluntary cleanup programs designed to remediate 
Brownfields.\2\ Of the more than 12,273 sites in these state programs, 
2,691 have been restored and redeveloped, Pennsylvania's program has 
been the most successful, cleaning up 583 of the 654 sites--89 
percent--in its program.
---------------------------------------------------------------------------
    \1\ See http://www.epa.gov/swerosps/bf/gdc.htm for a list of 
guidance documents. For information on EPA Brownfields efforts, see 
http://www.epa.gov/swerosps/bf/index.htm.
    \2\ Of these states, 12 have entered into Memoranda of Agreement 
(``MOA'') with EPA and follow the Agency's guidance. The remainder have 
state-sponsored voluntary cleanup programs that are similar to EPA's 
programs but independent of EPA oversight. The primary difference 
between these two efforts is that cleanups in those states working 
under MOAs receive a release from federal CERCLA Liability when a site 
is remediated according to the appropriate plan. These MOAs include 
provisions that allow EPA to reopen the cleanup based on a set of 
conditions. Sites remediated in states with voluntary cleanup programs 
that do not have MOAs with EPA only receive a release from state 
liability and remain subject to CERCLA liability should there be 
subsequent discovery of significant contamination of the site. The 
state voluntary programs, however, have cleaned up 1,530 Brownfields 
sites and 1,161 sites have been cleaned up pursuant to EPA MOA 
programs. The vast majority of final cleanups have occurred in five 
states--Pennsylvania, Illinois, Texas, Washington and California.
---------------------------------------------------------------------------
    Although this progress is praiseworthy, at the current pace it will 
take centuries to remediate 500,000 Brownfields sites. To accelerate 
the pace of redevelopment for Brownfields sites, Congress needs to 
build on the progress made by these 35 states and EPA. Redevelopment of 
Brownfields sites will bring jobs, significant economic development, an 
expanded tax base, and a better quality of life to the communities 
where these sites are located.
Congress must recognize the differences among Brownfields sites
    Any Brownfields reform legislation should treat sites according to 
the risk they pose to human health and the environment. Superfund was 
established to respond to the most highly contaminated sites that posed 
imminent and substantial endangerment to human health and the 
environment. However, as currently interpreted, any site that contains 
a detectable level of a hazardous substance--down to a few molecules--
is potentially subject to CERCLA liability. Due to this extremely 
broad, ridiculous interpretation of CERCLA, the number of Brownfields 
sites has grown from a few thousand to approximately 500,000.
    However, the vast majority of Brownfields sites are not 
contaminated at levels that require Superfund National Priority List 
(``NPL'') listing and Superfund liability. Among the 500,000 
Brownfields sites in the United States, there are three categories. 
Each type of site requires a different remediation strategy:
    <bullet> Sites with significant contamination, Sites in this 
category are high-risk sites under EPA or state screening criteria, 
listed or proposed NPL sites, and sites subject to CERCLA enforcement 
action should remain under CERCLA jurisdiction. Superfund is the 
appropriate mechanism for restoring these highly contaminated sites.
    <bullet> Sites not contaminated or sites with insignificant amounts 
of contaminants. Sites with little or no contamination should be 
released immediately from the CERCLA liability structure and restored 
through state voluntary cleanup programs. Using Superfund to clean up 
these sites is like using a bulldozer tobuild a sandcastle. The 
Superfund ``bulldozer'' may work, but for many Brownfields sites, it is 
not the right tool.
    <bullet> Sites that need additional investigation. Many sites 
require further testing to determine the quantity and amount of 
contamination. Sites that have not been characterized but are believed 
to be contaminated should be studied to determine the nature and extent 
of contamination and the best course of remediation.
    To this end, the U.S. Chamber provides the following three common 
sense recommendations for Brownfields legislation.
Recommendation 1: Support efforts to fully characterize site 
        contamination
    Brownfields legislation should provide funding to encourage the 
full, comprehensive characterization of Brownfields sites. Funding, 
which could include grant programs and state revolving loan funds, will 
greatly reduce the uncertainty surrounding the extent of contamination 
at sites, and identify and implement the measures necessary for 
remediation.
    This type of financial support would greatly expedite Brownfields 
redevelopment because the potential number of sites with little or no 
contamination is significant. A report published by the U.S. General 
Accounting Office (``GAO'') in December 2000 stated that of the 1,666 
site assessment that had been completed pursuant to EPA Brownfields 
Restoration Pilot Program funding, 623 sites--approximately 37 
percent--did not require cleanup activities.\3\ If the GAO study is 
representative of the entire inventory of Brownfields sites, this data 
may indicate that 30-40 percent of the estimated 500,000 Brownfields 
sites may require little or no remediation, totaling 150,000 to 200,000 
sites. Of the remaining sites, characterization would determine how to 
best cleanup and redevelop sites, through state voluntary cleanup 
programs, Superfund, or other statutes.
---------------------------------------------------------------------------
    \3\ U.S. General Accounting Office, Report to the Chairman, 
Committee on Commerce, House of Representatives, ``Brownfields: 
Information on the Programs of EPA and Selected States,'' Report Number 
GAO-01-52 (December 2000), at 31.
---------------------------------------------------------------------------
Recommendation 2: Enact CERCLA liability reforms
    Certain site remediation should be managed through Superfund. As 
previously stated, sites that are proven to be significantly 
contaminated should be cleaned up and restored pursuant to CERCLA, 
Working with the states, EPA is the appropriate government body to 
ensure these sites are cleaned up and restored.
    Contamination below NPL listing criteria should be managed by state 
programs. For sites contaminated at levels below NPL listing standards, 
parties redeveloping sites should be able to work with state 
environmental agencies to establish cleanup plans under which the site 
will be remediated. Upon completion of the remediation, the state would 
certify to EPA that the site had been remediated according to the plan 
and appropriate cleanup standards. As long as the retroactive, strict 
and joint, and several liability provisions of CERCLA continue to apply 
to all sites that may contain any hazardous substance, the site owners 
and operators will be reluctant to redevelop these sites.
    To authorize this process, Brownfields reform legislation should 
release from CERCLA liability contiguous property owners, prospective 
purchasers, innocent landowners and parties that redevelop Brownfields 
sites in accordance with a stateapproved plan. These provisions would 
remove potential uncertainty that could deter parties from cleaning up 
or purchasing restored Brownfields sites by ensuring that developers 
and purchasers of redeveloped sites will not be held responsible for 
any contamination on the site that occurred in the past.
    This reform would enable cleanups in accordance with other 
traditional federal and state environmental laws and common law 
liability requirements, Although Superfund would not apply in these 
cases, other federal and state statutes that regulate the treatment, 
storage, handling, transport and disposal of hazardous waste would 
ensure that cleanups are conducted in a manner that protects public 
health and the environment. These statutes contain severe sanctions for 
violators, and specify measures for addressing improper disposal, 
corrective action and other activities that endanger human health and 
the environment. Should unknown site contamination be discovered in the 
future, responsibility for cleanup would be assigned to potentially 
responsible parties (``PRPs'') pursuant to the CERCLA liability scheme.
    Release uncontaminated sites. As noted above, there may be 150,000 
to 200,000 sites classified as Brownfields that are not contaminated or 
do not pose a risk to human health and the environment. Provisions of 
legislation should allow developers to file with a state environmental 
permitting agency an audit report establishing the site as ``not 
contaminated.'' Should site characterization clearly demonstrate that 
Brownfields sites are free of environmental degradation, the site would 
be released from CERCLA liability.
    This categorization process will promote the expedited restoration 
and redevelopment of low-risk sites by encouraging state voluntary 
cleanup programs to harness and leverage private sector resources. It 
will also limit federal intervention in state cleanup programs 
concerning sites with minimum contamination and those restored to 
minimum state standards.
Recommendation 3: Establish finality for state cleanups
    Brownfields legislation must limit the role of the federal 
government in non-CERCLA, state voluntary cleanups to instances of 
imminent and substantial endangerment. Other more expansive provisions 
would lead to EPA meddling in state cleanups. Such an expansive ability 
to second-guess the states will discourage state cooperation.
    Under existing cleanup programs, many states have already proven 
reluctant to cooperate with EPA. Although 35 states currently have 
voluntary cleanup programs, only 12 have entered into agreements with 
EPA.\4\ The 23 remaining states have established independent voluntary 
cleanup programs to escape EPA micro-management of activities that 
states are very capable of performing.
---------------------------------------------------------------------------
    \4\ See footnote 2.
---------------------------------------------------------------------------
    Clearly, EPA should not have a blank check to micro-manage state-
led remediation efforts. Without limiting EPA authority over state 
voluntary cleanups, a significant degree of uncertainty will continue 
to deter parties from redeveloping Brownfields sites. Such a degree of 
EPA oversight is unnecessary. As noted, state voluntary cleanup 
programs have already resulted in more than 2,600 restored Brownfields 
sites. Congress needs to build on the progress made by the states--not 
establish new statutory provisions that will undercut state 
responsibility.
    Once again, thank you and the members of the committee for your 
leadership on the Brownfields issue. The U.S. Chamber appreciates your 
consideration of our views on restoring Brownfields sites. These 
efforts are necessary to improve the economic prosperity and 
environmental conditions of communities throughout the nation.
                                 ______
                                 

                     Statement of Timothy P. Murray

    As Worcester seeks to refocus its economic development agenda on 
the industries of biotechnology, information technology, healthcare and 
manufacturing our success will hinge upon the city's ability to provide 
developable parcels for businesses to locate and expand in Worcester. 
However, the city is limited in this regard as there are very few 
developable parcels currently available. Recent statistics from the 
City Manager's Office indicate that there are 248 confirmed properties 
in Worcester that are environmentally contaminated. These properties 
often remain in an unused state for years because of liability issues 
regarding contaminants which prevent private sector investment or 
reuse. It is also projected that there are over 600 polluted parcels or 
brownfields as they are commonly known within the 34.5 square miles 
that comprise the boundaries of our city. These properties vary in size 
from small individual lots to contiguous acres of vacant land and 
abandoned buildings.
    Similar projections approximate the current annual assessed value 
of these 600 brownfield properties at $300 million. However, in an 
improved state the property values of these same 600 properties would 
increase to $1 billion a year. This would increase revenues collected 
by the city by nearly $30 million dollars annually. If this revenue was 
ever realized it could be used to substantially reduce the tax burden 
now being paid by Worcester's homeowners and business owners. A 
dramatic example of the impact this revenue could have is that by using 
half of this $30 million in one year we could wipe out the current 10 
year backlog of streets and sidewalks that need to be repaved.
    Equally significant is that the redevelopment of these properties 
would create job opportunities and private investment in our city. Much 
of this investment would take place in neighborhoods that have seen a 
pattern of decline and disinvestment. This disinvestment results in 
abandoned or decrepit housing stock, arson, crime and many of the other 
characteristics of urban blight. Moreover by removing the pollutants 
from these properties we will reap numerous environmental benefits that 
will result in cleaner rivers, parks and air quality for our citizens.
    A recent article in the August 6, 2000 Sunday Telegram by James 
Bodor chronicled how municipalities with acres of unpolluted land in 
close proximity to highways and airports have been the most successful 
in attracting emerging high tech companies and venture capital 
investment. This development of virgin land is also known as urban 
sprawl as it often wipes out acres of open space and woodlands. However 
increasingly state and federal policy makers are seeking to create 
legislative and financial incentives to combat the detrimental effect 
of urban sprawl and encourage the reuse of older industrial brownfield 
sites. These policy trends coupled with Worcester's strong 
transportation network, geographic location and educated work force 
requires that Worcester develop a focused and coordinated plan to 
access the needed resources to implement brownfield clean ups of the 
acres of fallow land throughout our city.
    Worcester has had some success in this regard to date. The 
Worcester Medical Center came to fruition because of the work of the 
City, Worcester Redevelopment Authority, the State and St. Vincent's. 
The Worcester Business Development Corporation is currently working on 
this issue in the Prescott Street area and CMEDA was used to develop 
the Marriott Hotel site on Grove Street.
    However, we must greatly accelerate our efforts to take full 
advantage of this economy and the many assets Worcester possesses. In 
this regard, the City Manager should consider establishing a group of 
business and government officials to address this critical issue. Areas 
of discussion for such a group might be as follows: (1) development of 
local low interest loan pool or revolving fund to augment private, 
state and federal grant and lending programs, (2) designation of point 
person within city government to educate property owners and developers 
on existing incentive and loan programs, (3) creation of legislative 
agenda with state and federal officials to secure additional resources, 
(4) create GIS mapping inventory of all identified and projected 
brownfield locations, (5) continue to further identify existing city 
resources and incentives to assist in brownfields clean up. Worcester's 
future is bright but it is imperative that we act now in this era of 
economic prosperity to ensure Worcester's future success for the next 
one hundred years.

                                    

      
</pre></body></html>
